<html>
<title> - OVERSIGHT OF THE NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION AND INNOVATIONS IN INTEROPERABILITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     OVERSIGHT OF THE NATIONAL TELECOMMUNICATIONS AND INFORMATION 
           ADMINISTRATION AND INNOVATIONS IN INTEROPERABILITY

=======================================================================



                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2007

                               __________

                           Serial No. 110-24


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

39-839 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan, 
             Chairman
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
DIANA DeGETTE, Colorado
    Vice Chairman
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               JOE BARTON, Texas
                                         Ranking Member
                                     RALPH M. HALL, Texas
                                     J. DENNIS HASTERT, Illinois
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     BARBARA CUBIN, Wyoming
                                     JOHN SHIMKUS, Illinois
                                     HEATHER WILSON, New Mexico
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     VITO FOSSELLA, New York
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE FERGUSON, New Jersey
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee
<RULE>_________________________________________________________________

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
   Bud Albright, Minority Staff 
             Director

                                  (ii)
          Subcommittee on Telecommunications and the Internet

               EDWARD J. MARKEY, Massachusetts, Chairman
MIKE DOYLE, Pennsylvania             FRED UPTON, Michigan
    Vice Chairman                        Ranking Member
JANE HARMAN, California              J. DENNIS HASTERT, Illinois
CHARLES A. GONZALEZ, Texas           CLIFF STEARNS, Florida
JAY INSLEE, Washington               NATHAN DEAL, Georgia
BARON P. HILL, Indiana               BARBARA CUBIN, Wyoming
RICK BOUCHER, Virginia               JOHN SHIMKUS, Illinois
EDOLPHUS TOWNS, New York             HEATHER WILSON, New Mexico
FRANK PALLONE, Jr, New Jersey        CHARLES W. ``CHIP'' PICKERING, 
BART GORDON, Tennessee                   Mississippi
BOBBY L. RUSH, Illinois              VITO FOSELLA, New York
ANNA G. ESHOO, California            GEORGE RADANOVICH, California
BART STUPAK, Michigan                MARY BONO, California
ELIOT L. ENGEL, New York             GREG WALDEN, Oregon
GENE GREEN, Texas                    LEE TERRY, Nebraska
LOIS CAPPS, California               MIKE FERGUSON, New Jersey
HILDA L. SOLIS, California           JOE BARTON, Texas, (ex officio)
JOHN D. DINGELL, Michigan, (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Barton, Hon. Joe, a Representative in Congress from the State of 
  Texas, prepared statement......................................    12
Capps, Hon. Lois, a Representative in Congress from the State of 
  California, prepared statement.................................    14
Dingell, Hon. John D., a Representative in Congress from the 
  State of Michigan, prepared statement..........................    11
Doyle, Hon. Mike, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     9
Engel, Hon. Eliot L., a Representative in Congress from the State 
  of New York, opening statement.................................     8
Eshoo, Hon. Anna G., a Representative in Congress from the State 
  of California, prepared statement..............................    11
Green, Hon. Gene, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
    Prepared statement...........................................     6
Harman, Hon. Jane, a Representative in Congress from the State of 
  California, opening statement..................................     4
Hastert, Hon. J. Dennis, a Representative in Congress from the 
  State of Illinois, prepared statement..........................    13
Markey, Hon. Edward J., a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
Solis, Hon. Hilda L., a Representative in Congress from the State 
  of California, opening statement...............................    10
Upton, Hon. Fred, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3

                               Witnesses

Devine, Steve, patrol frequency coordinator, Missouri State 
  Highway Patrol Communications Division, Jefferson City, MO.....    90
    Prepared statement...........................................    93
Kneuer, John M.R., Assistant Secretary, Communications and 
  Information, and Administrator, National Telecommunications and 
  Information Administration, U.S. Department of Commerce........    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   118
McEwen, Harlin, vice chairman, National Public Safety 
  Telecommunications Council, Ithaca, NY.........................    58
    Prepared statement...........................................    60
O'Brien, Morgan, chairman, Cyren Call Communications Corporation, 
  McLean, VA.....................................................    69
    Prepared statement...........................................    71
Rittenhouse, George, senior vice president for technology 
  integration, Bell Labs, Alcatel-Lucent Bell Labs, Murray Hill, 
  NJ.............................................................    53
    Prepared statement...........................................    55
Tucker, Mark L., chairman, CoCo Communications Corporation, 
  Seattle, WA....................................................   102
    Prepared statement...........................................   103

                           Submitted Material

Brito, Jerry, senior research fellow, Mercatus Center at George 
  Mason University, Fairfax, VA, statement.......................   125
Kneuer, John M.R., Assistant Secretary, Communications and 
  Information, and Administrator, National Telecommunications and 
  Information Administration, U.S. Department of Commerce, letter 
  of March 1, 2007, to Mr. Engel.................................   153
Peha, Jon M., professor, electrical engineering and public 
  policy; associate director, Center for Wireless & Broadband 
  Networking, Carnegie Mellon University, statement..............   135


     OVERSIGHT OF THE NATIONAL TELECOMMUNICATIONS AND INFORMATION 
           ADMINISTRATION AND INNOVATIONS IN INTEROPERABILITY

                              ----------                              


                        THURSDAY, MARCH 22, 2007

     Subcommittee on Telecommunications    
                          and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:10 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Edward J. 
Markey (chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, Harman, Gonzalez, 
Inslee, Rush, Eshoo, Stupak, Engel, Green, Capps, Solis, Upton, 
Hastert, Stearns, Shimkus, Wilson, Fossella, Terry, Ferguson 
and Barton [ex officio].

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning. The subject of today's oversight 
hearing is the National Telecommunications and Information 
Administration. In the last Congress NTIA's job description was 
expanded to include the administration of two new billion 
dollar grant programs. First, NTIA has been charged with 
running the Digital TV Converter Coupon Box Program to help 
ensure that analog televisions will not go dark on consumers 
after the DTV transition on February 17, 2009. And second, NTIA 
is responsible for administering the Public Safety 
Interoperable Communications Grant Program, which will 
distribute $1 billion in grant payments.
    Let me start with the DTV Converter Box Coupon Program. To 
ensure that millions of televisions do not go dark on February 
17, 2009, Congress created a $1.5 billion fund which NTIA will 
use to distribute two $40 coupons per household to subsidize 
the purchase of digital-to-analog converter boxes. Yet NTIA 
recently placed an important restriction on coupon 
availability. For the first $990 million of the funding, any 
consumer can obtain a coupon. After that, however, only 
consumers who live in exclusively over-the-air television 
households are eligible.
    For a transition that has significant consumer education 
hurdles to overcome, arbitrarily changing consumer eligibility 
in the midst of the program will simply lead to greater 
consumer confusion. Moreover, it will unfairly disenfranchise 
millions of consumers who subscribe to cable or satellite 
service but who also possess perfectly functional analog 
televisions. And let us remember that these televisions, which 
consumers bought in the tens of millions over the last several 
years, typically last 15 to 20 years. As a practical matter, 
the eligibility limitation is virtually impossible to 
implement.
    I would note that NTIA decided not to limit eligibility for 
the first $990 million because there is no cost-effective means 
to identify exclusively over-the-air households. In fact NTIA 
itself, observed that trying to do so would ``likely delay 
reasonable and timely distribution of coupons and result in 
waste, fraud and abuse.'' Yet, after the Bush administration's 
Office of Management and Budget ill-advisedly revised the 
proposal, NTIA reversed course and limited eligibility for the 
remainder of the funding. Why? Apparently because the Bush 
administration is concerned that $1.5 billion may be 
inadequate.
    Chairman John Dingell and I and other Democratic colleagues 
urged the administration and our Republican colleagues to 
ensure sufficient funding in the last Congress so that we 
wouldn't face precisely this situation. If the administration 
is now concerned enough to restrict eligibility out of fear 
that funding may be insufficient, it should have to come to 
Congress and asked for more money. Instead, the administration 
limited eligibility of the coupons in a manner that may leave 
millions of Americans with new fishbowls, end tables and 
doorstops.
    I am also not convinced that NTIA's consumer education 
efforts will adequately inform consumers about the coupon 
program. To a certain extent, NTIA is limited because Congress 
itself limited the consumer education funds to a mere $5 
million. On the other hand, NTIA has not asked for more 
funding. Rather, the administration appears to be overly 
reliant on the Internet and the good graces of industry to get 
the job done.
    Web sites can certainly be a powerful tool, assuming a 
consumer knows a transition is underway in the first place in 
order to look for information online. It also presumes that the 
consumer has a computer. Since the GAO has told us that about 
one half of the 21 million over-the-air households earn less 
than $30,000 a year, I think it is a safe bet that the most 
challenging consumers to reach are the least likely to be 
surfing the Web for information. In other words, if these 
households find cable too expensive and otherwise qualify for 
food stamps, do we really think they own computers?
    I note that other groups, including the disability 
community, have expressed concerns about outreach, notably, the 
lack of any commitment to provide closed captioning for public 
service announcements or to offer telecom relay service on 
consumer education hotlines. And while NTIA has publicly stated 
that it is collaborating with industry and public interest 
groups, it has no written public plan for directing the 
consumer education campaign.
    And finally, with respect to the new Interoperability Grant 
Program, our overarching goal is to ensure that all of the 
Nation's first responders will be able to communicate in time 
of crisis. NTIA is the expert agency in telecommunications and 
in spectrum issues. Congress charged NTIA, not the Department 
of Homeland Security, with administering this program so we 
could get some new thinking. We could have sent the money to 
the Department of Homeland Security, but we didn't. We wanted 
NTIA, with its telecommunications and spectrum-based expertise, 
to fund innovative, cost-effective solutions to 
interoperability.
    We look forward to working with the NTIA to ensure that 
this is how the program works. Let me turn now and recognize 
the gentleman from Michigan, the ranking member, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. I want to thank 
you, and I want to thank our witnesses for testifying today on 
this very important issue. And I also appreciated, in my tenure 
as chairman, the bipartisanship, attention and time and support 
that we received on this DTV transition.
    At the heart of this concern was the immediate post-9/11 
realization that our mission was to get the long promised 24 
MHz of spectrum in the upper 700 MHz band clean to the 
broadcasters by a date certain and once and for all into the 
hands of public safety for interoperability. In fact, clearing 
that 24 MHz was precisely the task which the bipartisan 9/11 
Commission and its recommendations to the Congress also 
recognized as mission critical to our homeland security.
    Yet, despite the moral imperative, it still took years of 
planning, countless roundtables and hearings, discussion drafts 
and negotiations and addressing fears of turning folks' 
televisions off, the dark side, to finally get to the passage 
of the DTV Act last Congress. Individually, each local 
broadcaster had to invest significant sums, often millions of 
dollars, to make that transition, not to mention the added 
energy and insurance costs for operating both the analog and 
digital facilities at the same time.
    And they are ready. Our local broadcasters are to be 
commended for doing their part. Had it not been for their hard 
work and sacrifice, this transition would not have been 
possible. And we worked shoulder to shoulder with public safety 
to finally clear the major milestone in this mission and even 
added value by creating the $1 billion public safety 
interoperability grant program to be funded with cash on the 
barrel head out of the DTV spectrum auction proceeds.
    Of course, while we resolved to clear broadcasters to get 
the 24 MHz into the hands of public safety by a date certain, 
this will not happen by simply waving that magic wand. There is 
a plan in place. It is a carefully calibrated plan to ensure 
that this DTV transition occurs by a date certain. There may be 
some things we could do to improve consumer education, for 
sure, passing the Barton-Hastert-Upton-almost Markey bill, 
since the Senate stripped some of our provisions.
    But make no mistake, if we alter any of the fundamental 
pillars of the DTV Act plan, like the auction date or the 
spectrum allowance allocations, we, in fact, will jeopardize 
the 24 MHz of public safety spectrum and $10 billion in auction 
proceeds, I think it will be more than that, which fund the 
billion dollar public safety grant program and the converter 
box subsidies. The stakes are too high to gamble and we have 
come too far to risk straying from that well-plotted course.
    I would like also to take a moment to touch upon the NTIA 
converter box program. As a complement to the NTIA plan, cable 
operators have said that they could provide consumers with a 
low-cost set-top box that among other things can make digital 
signals, broadcast signals, viewable on analog TVs. 
Unfortunately, the FCC's Media Bureau recently denied certain 
waivers from the integrated set-top box rule, which will have 
the result of forcing consumers to pay $2 to $3 more each month 
to lease a set-top box that offers no new features.
    And I think that the integration band is a bad idea, but 
when viewed in the context of the Government's strong interest 
in promoting an efficient transition to DTV, with minimal 
consumer impact, it is even worse. We should be looking for 
ways to make it less expensive, not more expensive, for 
consumers to make the transition to digital.
    I look forward to hearing from our two panels this morning. 
I am proud that we were successful in not only passing the DTV 
Act last Congress, but we also provided a helping hand to 
enable our first responders to better protect the American 
people. And at this point, Mr. Chairman, I would ask unanimous 
consent to submit, for the record, along with my colleague and 
friend, Ms. Harman, the written testimony of Jerry Brito, the 
senior research fellow at the Mercatus Center at George Mason 
University, and also in the record, again, with my colleague, 
Ms. Harman, the testimony of John Peha, professor at Carnegie 
Mellon University of Electro-engineering, into the record and 
press releases praising this.
    Ms. Harman. Will the gentleman yield to me?
    Mr. Upton. I would be glad to yield.
    Ms. Harman. I am happy to join in this request, but I do 
want the record to show that I do not agree with some of the 
conclusions reached in this material, but I do think the record 
should be as full as possible with respect to some cautions 
about how we go forward.
    Mr. Upton. With that, Mr. Chairman, I yield back.
    Mr. Markey. The gentleman's time has expired. Without 
objection, those materials will be included in the record.
    The Chair recognizes the gentlelady from California.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. I didn't realize I had 
arrived, I guess, before my esteemed colleague over here. Well, 
thank you. I did, I did. Good morning to all. I have to watch 
him all the time. Welcome to our witnesses, and apologies in 
advance for leaving by 10 o'clock because I have to chair 
another hearing.
    Our Nation has a serious interoperability problem, and I am 
more and more frustrated with our failure to correct it. Five 
and a half years after 9/11 we are at risk of the same 
devastating communications failures that killed hundreds of 
firefighters in the World Trade Center who didn't know the 
towers had begun to glow red and who couldn't hear the 
evacuation order issued over police radios located in 
helicopters flying overhead. The DTV transition and the release 
of 24 MHz of spectrum for public safety is an unprecedented 
step in the right direction. As co-author of the Hero Act, 
which was introduced in 2001, I had hoped this transition would 
occur when Congress promised it, in late last year, but now I 
am determined to be sure it occurs in 2009.
    As our witnesses know, spectrum is only half the battle. 
The next step is ensuring that public safety has the robust 
networks to communicate during emergency responses, both large 
and small. The fact that private citizens have access to such 
networks while police officers, firefighters and EMTs don't is 
a sad and tragic commentary. Many of the ideas, systems and 
technologies we will hear about today are promising. They show 
great promise on the technology side. But we need to ensure 
that regional systems work together; that local and regional 
solutions do not bring us farther away from a national 
solution.
    There is a risk that the $1 billion Public Safety 
Interoperable Communications Grant Program, which may grow even 
larger if the adds that the Senate made to H.R. 1 become law, 
there is a risk that it could improve communications 
operability at the expense of interoperability. This is 
unacceptable. We don't need a welfare program, we don't need a 
broadcaster relief program. What we need is a public safety 
program, and this member of this committee, who is also a 
member of the Homeland Security Committee, is going to keep on 
keeping on until we keep that promise to our public by 2009. 
Thank you, Mr. Chairman.
    Mr. Markey. The Chair recognizes the gentleman from 
Nebraska, Mr. Terry.
    Mr. Terry. I waive.
    Mr. Markey. The Chair recognizes the gentleman from New 
Jersey, Mr. Ferguson.
    Mr. Ferguson. I waive.
    Mr. Markey. Chair recognizes the gentleman from Texas, Mr. 
Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and I would like to 
thank my colleagues, and I apologize because I can't be here 
because I have an Ethics Committee meeting at 10 o'clock and 
hopefully we will get our earmarks taken care of so some of us 
won't be in trouble if we request something for our districts, 
but I would like my full statement placed into the record.
    Mr. Chairman, I want to welcome Mr. Kneuer, and I guess 
when the transition to digital television was discussed and 
passed in 2005, I had concerns about it at that time, and I 
still have those concerns. There wasn't enough money allocated 
to provide everyone with coupons for a converter box or the 
standards of the boxes were just released recently, just last 
week. And I believe the concern I think a lot of us share was 
taking away public airwaves, which currently carries signals to 
millions of televisions and selling that spectrum, but we don't 
know if those folks will still get their television reception.
    Up until February 28 you could still go buy an analog 
television set, and unless we provide folks, like in my 
district, how they are going to receive that. I have a district 
that is very low in cable penetration, and as our chairman 
said, if they don't have cable, they definitely typically don't 
have computer access. So I am looking forward to NTIA's plan to 
ensure that people who have analog television sets are notified 
because of how important television is to us for emergency 
broadcasting and lots of other things.
    Like I said, cable penetration is very low in my district, 
and the number of homes with Internet access is even lower than 
that. The taking away of the spectrum ensures that their 
televisions will not be working on February 28, 2009, and I 
hope we can deal with that between now and then. I know we need 
a hard date, but I also know that there is a lot to be done. I 
have to remember that Congressman Walden from Oregon, about 3 
years ago when we first started talking about, it said why 
don't we make the retailers put a statement on these saying 
this is the hard date. If you buy this analog TV, you may have 
to purchase a converter. I don't know where that is at in the 
process. We need a lot of consumer information, and it is 
already too late to do that because they can't buy analog TVs 
now, but let me tell you how many people bought those $200 
large analog TV sets.
    The Public Safety Interoperable Communications Program is 
another important part. Having lived through 9/11, Katrina and 
Rita in the Gulf Coast area, we know we have a patchwork system 
and the challenge is unique, and unlike commercial use, 
emergency response systems must work in burning buildings, 
during natural disasters and under other extreme circumstances. 
I am concerned without planning and oversight the billion in 
interoperability grants NTIA is overseeing would do nothing 
more than purchase new radios for police cars and fire trucks.
    And I particularly follow the efforts of my hometown, 
Houston, which is making efforts to ensure that a state of the 
art interoperable communications system will provide public 
service agencies with a reliable system for the foreseeable 
future. The Houston metropolitan area is comprised of 10 
counties, it spans 9,000 square miles, with a combined 
population of 5.3 million; 41 percent of those folks only 
reside in the city of Houston within the 640 square miles, the 
fourth largest city situated almost entirely within the 
Nation's third largest county.
    We have the Port of Houston critical infrastructure and 
petrochemical area, a large medical center and our commercial 
assets. Since 2003 Houston has worked to implement a 
comprehensive plan, not just within the city of Houston, but 
across the region, and our long-term goal is to migrate to the 
700 MHz radio system for the public safety. It will go from not 
just the Houston area but around the region and cover a 13-
county area. That is just one of the problems we have in our 
country, and I know New York, Newark, everywhere else; LA, Long 
Beach, you name it, so again, I look forward to NTIA's solution 
to this and your testimony. Thank you, Mr. Chairman. I yield 
back my time.
    [The prepared statement of Mr. Green follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    Mr. Chairman, thank you for holding this oversight hearing 
with the NTIA. I look forward to hearing from the witnesses on 
the status of the DTV transition and the Public Safety 
Interoperable Communications Program.
    The transition to digital television is something I was 
opposed to when it was passed in 2005, and I still have many 
concerns.
    There wasn't enough money allocated to provide everyone who 
needs a converter box with coupons to subsidize those boxes--
the standards for the boxes were released late, just last week 
actually--and the distribution system of offering vouchers in 
two stages seems too complicated for many consumers to 
understand without proper notification, which there hasn't 
been.
    It is unbelievable that we are taking away public 
airwaves--which currently carry signals to millions of 
televisions across this country--selling that spectrum, and not 
providing every American person who has an analog television 
with a voucher so they can keep using their television. Some of 
these televisions could have been purchased as recently as last 
year.
    I want to hear NTIA's plan to ensure the people who have 
analog televisions are notified of this program and the 
consumers who don't have cable, or Internet, are aware of the 
transition and that these coupons are available.
    Cable penetration in the 29th district of Texas, the 
district I represent, is low. The number of homes with Internet 
access is low as well. How are these households going to know 
they need to apply for a coupon that will only cover about two-
thirds of the price of a converter box so they can keep using 
their televisions?
    We are taking spectrum away from the American people and 
not making it right by ensuring their televisions will be 
working on February 18, 2009.
    I don't believe all this falls on NTIA because they have to 
work with what they were given, which was flawed to begin with, 
but I am concerned they aren't doing all they can to ensure the 
households that most need the vouchers will know about them or 
how to apply for them.
    The Public Safety Interoperable Communications Program is 
another important issue I look forward to hearing testimony on.
    The need for more interoperable communications systems has 
become apparent with 9/11, Katrina, Rita, and other disaster 
response efforts across the country.
    We have a patchwork system that works at times and at other 
times is unpredictable. The challenges are unique, and unlike 
commercial use, emergency response systems must work in burning 
buildings, in natural disasters, and under other extreme, 
unpredictable circumstances.
    I am concerned without planning and oversight, the $1 
billion in interoperability grants NTIA is overseeing will do 
nothing more than go to purchase new radios for police cars and 
fire trucks.
    I applaud the work and monetary investment my hometown of 
Houston is making to ensure they have a state-of-the-art, 
interoperable communications system that will provide public 
service agencies with a reliable system for the foreseeable 
future.
    The Houston Metropolitan Statistical Area is comprised of 
10 counties that span nearly 9,000 square miles with a combined 
population of 5.3 million residents. More than 41 percent of 
these residents reside within the corporate limits of the city 
of Houston, a 640-square mile urban area that is the fourth 
largest city in the Nation, situated almost entirely within the 
Nation's third largest county.
    The region has a high density of critical infrastructure, 
including the Port of Houston, the petrochemical industry, the 
largest medical center in the world, and extensive commercial 
assets.
    Since 2003, Houston has worked to implement a comprehensive 
plan to improve interoperability with adjacent jurisdictions. 
This plan includes short and long-term objectives that address 
both tactical and full interoperability.
    Houston's long-term goal is to migrate to a 700 MHz trunked 
radio system for Houston public safety agencies that provides 
full interoperability with the Harris County regional radio 
system and State and Federal agencies.
    This project will maximize public safety radio 
interoperability in the 13-county region surrounding the city 
of Houston and will achieve the highest level of 
interoperability on the SafeCom Interoperability Continuum, 
with both a standards-based, shared system and daily use 
throughout the region.
    The city of Houston has achieved tactical interoperable 
communications but faces multi-million dollar projects to 
achieve the goal of full interoperability.
    Grants should not be distributed in small amounts that 
patch together old existing technology but should be 
distributed on a risk-based system with priority given to 
entities that are investing their own money to create fully 
interoperable systems.
    I hope Secretary Kneuer and NTIA agree that this is the 
kind of interoperability we need to aim for with this grant 
program.
    Thank you again Mr. Chairman for holding this hearing, and 
I welcome our witnesses and look forward to their testimony.
                              ----------                              

    Mr. Markey. The gentleman's time has expired. Speaker 
Hastert.
    Mr. Hastert. Thank you, Mr. Chairman. I want to yield back 
my time, if I could insert my statement into the record.
    Mr. Markey. Without objection.
    Mr. Markey. The gentleman from Texas, Mr. Gonzalez.
    Mr. Gonzalez. I will waive.
    Mr. Markey. He waives. The gentleman from New York, Mr. 
Engel.

 OPENING STATEMENT OF HON. ELIOT L. ENGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Engel. Thank you. Thank you, Mr. Chairman, and thank 
you for holding this hearing, and I want to welcome Assistant 
Secretary Kneuer to the committee today. I want to add my voice 
to the frustration that Ms. Harman mentioned in terms of 
interoperability. Representing New York City and the suburbs, 
we obviously feel the most pain about what happened in 9/11, 
and it is very frustrating that so many years later we are 
really not up to where we should be, and I think we really, 
really need to move much more quickly on this.
    It grieves us, every life that was lost, but obviously 
there were lives that were lost that didn't have to be if we 
had had an interoperability system that most of us thought we 
really had until we learned sadly that we did not, so it is 
unconscionable, I think, that more than 5 years later we are 
still not up to where we should be.
    But I would first like to start by thanking the Secretary 
for assisting with New York's eligibility for the Public Safety 
Interoperable Communications Grant Program. The city of New 
York has made enormous investments in the 400 MHz portion of 
the spectrum to ensure reliable first responder communications. 
There has been some concern that the Department of Commerce's 
eligibility guidelines could be limited to systems that use the 
700 MHz range. I raised this concern with Secretary Kneuer, and 
he sent me a letter guaranteeing an interpretation of the 
language to allow systems that do not operate on a 700 MHz 
range like New York to receive funding, so I want to mention 
that because I think it is significant.
    I ask the Chair for unanimous consent to submit this letter 
into the record.
    Mr. Markey. Without objection, so ordered.
    Mr. Engel. Thank you, Mr. Chairman. I would also like to 
acknowledge that NTIA has recently awarded funding to the 
Metropolitan Television Alliance for the first phase of the New 
York City 9/11 Digital Transition Project. I know that there 
was some difficulty determining the grant guidance and thank 
the NTIA for resolving the issue. I must say, though, that I 
hope, in the future, programs like these don't take quite as 
long as this one did to administer.
    Last week this committee had the opportunity to hear 
testimony from the FCC Commissioners, and we obviously had 
opportunity to ask them a number of questions. One issue that I 
felt was important to address was the status of the DTV 
transition. Chairman Martin pointed out that the FCC shares the 
responsibility of educating the consumer about this transition 
with the NTIA, that it wasn't solely an FCC responsibility. 
NTIA has been tasked with the important role of administering 
the Digital TV Transition Converter Box Coupon Program, a 
program that, in my opinion, has been severely under-funded and 
continues to be severely under-funded.
    When you look at other countries, other cities, 
international cities, they are spending much more money for 
much less people that really have to have this transition, and 
I don't believe we are spending adequate money for this at all. 
The thoughtful and responsible implementation of the converter 
box coupon program is an essential piece of the success of the 
DTV transition, so with great interest, I want to hear what 
plans Mr. Kneuer has for the program and most importantly, 
learning about NTIA's consumer outreach efforts.
    Finally, I intend to ask Mr. Kneuer questions regarding 
NTIA's responsibility to administer the Public Safety 
Interoperable Communications Grant Program. This program is 
very relevant to New York and to the United States, and I look 
forward to learning about the plans for the program, and I 
thank you, Mr. Chairman.
    Mr. Markey. Thank the gentleman. Chair recognizes the 
gentlelady from New Mexico, Mrs. Wilson.
    Mrs. Wilson. I will pass, Mr. Chairman.
    Mr. Markey. Chair recognizes the gentleman from 
Pennsylvania, Mr. Doyle.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman. Before I begin, I would 
like to thank Mr. Upton for having the comments of Dr. John 
Peha, an alumnus of this committee's staff and a professor of 
electrical engineering and public policy and director of the 
Center for Wireless and Broadband Networking at Carnegie Mellon 
University and also a constituent of mine, into the record, so 
thanks, Fred.
    Mr. Upton. Do you agree with his conclusions, as well?
    Mr. Doyle. Yes, I actually agree with a lot of these 
conclusions. Mr. Chairman, I also won't be able to make the 
second half of this hearing, so while I will address my 
questions for Assistant Secretary Kneuer in a moment, I want to 
take some time to talk about the second panel.
     Members of the subcommittee will recall my commitment to 
protecting local resources and making sure that decisions are 
made where they are best made. I worked hard on the COPE Act 
last year to achieve those results, and I will continue to do 
so when needed, which is why I am glad we have Mr. Devine on 
today's panel to talk about his efforts to coordinate 
Missouri's public safety airwaves for interoperability across 
the State and with its neighbors.
    Spectrum itself is nearly infinite, but in terms of what is 
usable, what is worth investing in, it is much more limited. 
When you get up around 90 or 100 gigahertz, it is about as 
valuable as the London Bridge is in Arizona, which is why we 
must challenge everyone who uses our airwaves to do so in the 
most efficient way possible. And that is why efforts to make 
public safety's communications interoperable, redundant and 
more effective are so crucial to our Nation's first responders 
and ultimately to the American public.
    Gone are the days when people who don't understand 
technology, are given choices between inefficient and expensive 
dead-end radios. Mr. Chairman, I see our time is short today, 
but we must take the best of what we have learned from the 
commercial space, like interoperability and cost-effective 
technology and merge it with the best of public safety's 
communications legacy, such as rock solid dependency. And with 
that, Mr. Chairman, I will yield back.
    Mr. Markey. The gentleman's time has expired. The gentleman 
from Illinois, Mr. Shimkus.
    Mr. Shimkus. Mr. Chairman, thank you, and I will just 
waive.
    Mr. Markey. The gentlelady from California, Ms. Solis.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Mr. Chairman, and also thank you 
Ranking Member Upton for holding this very important hearing 
today. I want to thank the witnesses, also, for being here and 
providing us testimony later today. I am particularly 
interested in two specific topics.
    First I am eager to hear about the NTIA and what they are 
doing to ensure that consumers are educated about the digital 
television coupon program well in advance of the 2009 deadline. 
Households with over-the-air television sets and no cable or 
satellite service are disproportionately low-income, Spanish-
speaking and in many cases, underrepresented minority groups. I 
hope that Assistant Secretary Kneuer will address outreach 
efforts to these households with limited Internet access and in 
particular, to language barriers that exist and hopefully 
outline more creative solutions to ensure that these consumers 
are not left behind in the digital transition.
    And then second, I am looking forward to learning more 
about the public safety interoperability grants to local 
communities. Many of the cities that I represent in Los Angeles 
have applied for grants to achieve interoperability with their 
neighboring communities. In fact, the city of West Covina 
provided a real life example of the regional interoperability 
problems they and other cities in the San Gabriel Valley are 
facing.
    Last April the city of West Covina's SWAT Team responded to 
a bank robbery situation in the city of Baldwin Park, which is 
neighboring, to assist the city's police. But despite standing 
right next to each other, the officers could not use their 
radios to communicate and had to, instead, call in to their 
respective dispatch centers to communicate. The U.S. Conference 
of Mayors found, in a recent survey, that over a 1-year period, 
44 percent of the cities reported that the lack of 
interoperable communications made the response to a public 
safety incident requiring multi-agency response very, very 
difficult.
    And in California, as you know, wildfires and earthquakes 
are a constant threat to our citizens' public safety, and we 
can't wait 20 years for the first responders to become 
interoperable. We have to do more to ensure that all our 
cities, towns, rich and poor, rural and urban, are able to 
achieve interoperability in the near future. Again, thank you 
for being here, and I look forward to your responses. Thank 
you.
    Mr. Markey. All right, the gentlelady's time has expired, 
as has all time for statements by the subcommittee members. 
Other statements for the record will be accepted.
    [The prepared statements follow:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

     Mr. Chairman, thank you for holding this important 
oversight hearing. The National Telecommunications and 
Information Administration of the U.S. Department of Commerce 
is the executive branch's expert agency on telecommunications 
and information services. As such, it is important that NTIA 
come before this Committee to offer its insights into the state 
of telecommunications in our great Nation.
     First, I am curious to know what specific policies the 
executive branch has put in place to serve the 
telecommunications needs of all Americans. For example, does 
NTIA believe that everyone in the country has access to 
universal, affordable, and robust broadband services? If not, 
what specific action is NTIA taking to fill in the gaps? In the 
past, NTIA has produced meaningful research into the digital 
divide and the level of minority media ownership. I would like 
to know why these efforts have fallen off in recent years.
     Second, I am interested in NTIA's stewardship of the 
digital television transition converter box coupon program. All 
of us would like to see the transition take place on time. 
NTIA, however, took more than a year to release rules for the 
program, and the rules contain a major defect. Ignoring the 
congressional debate and conventional wisdom about the cost and 
difficulties with eligibility restrictions, the rules restrict 
the latter portion of the funding to over-the-air households 
only. As a result of this short-sighted approach, millions of 
Americans, whose analog sets will no longer work after the 
transition, could be denied participation in the coupon 
program. NTIA's decisions will prove an important measure of 
how successful the transition will be for American families. If 
the administration believes it will take additional funding to 
prevent televisions from going dark by the Government-mandated 
transition, it should make such a request to the Congress.
     Third, I have concerns about NTIA using its role in 
working with the Internet Corporation for Assigned Names and 
Numbers (ICANN) to better promote an effective, open, and 
transparent process for all parties for the governance and 
security of the Internet.
     The second panel in today's hearing addresses public 
safety communications interoperability. The need for 
interoperability was vividly displayed during the devastating 
destruction of the World Trade Center on September 11, 2001. In 
2005, as first responders rushed to the Gulf Coast in the 
terrible aftermath of Hurricane Katrina, the need for reliable 
communications among first responders from across the country 
became an immediate and real issue witnessed by all of America.
     The Department of Homeland Security has been funding 
efforts for interoperability for several years. After $3 
billion and 5 years, some progress apparently has been made at 
the local and State level. But I believe not enough progress 
has been made. We need a more forward-looking and innovative 
approach to a problem that has persisted for too long.
     I thank the chairman for holding this hearing, and I look 
forward to the testimony of the witnesses.
                              ----------                              


Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California

    Thank you Mr. Chairman and welcome Assistant Secretary 
Kneuer.
    One of the issues your agency has jurisdiction over which 
is of concern to me is the administration of grants to promote 
the upgrade of 9-1-1 emergency call centers and the location 
tracking information they're able to receive from callers in 
distress.
    Along with Rep. Shimkus I'm the House co-chair of the 
Congressional E9-1-1 Caucus, which works with public safety and 
industry to promote the adoption of advanced E9-1-1 technology 
to ensure that all 9-1-1 callers can be located by emergency 
assistance when they call 9-1-1.
    The ENHANCE 911 Act, signed into law by President Bush in 
2004, is designed to speed enhanced 911 implementation and 
improve coordination among all levels of government by 
providing funds to address and promote best practices and 
technology innovations.
    The law authorizes $250 million in matching grants for 
States and local governments, but the last Congress failed to 
appropriate funds for this important program. As in previous 
years, the President did not provide funds for the program in 
his Budget.
    Last month the Senate Commerce Committee authorized $43.5 
million for the Joint E9-1-1 Program Office as part of the 
Senate 9/11 legislation, and last week Rep. Shimkus and I wrote 
to the CJS and Transportation Appropriations Subcommittees 
requesting funding.
    I'm hopeful we'll be successful in securing funding for the 
E9-1-1 Office this year, and I'm eager to hear what plans are 
underway to lay the groundwork for the success of the program.
    I'm also interested to learn more about the public safety 
interoperability grant program which you administer along with 
the Department of Homeland Security.
    During the consideration of 9/11 legislation earlier this 
year, I raised an important issue related to the need to ensure 
the grant program is not limited solely to new hardware 
purchases that facilitate interoperability.
    I think it's imperative to ensure that the interoperability 
grants are not solely focused on ``equipment'' that enables 
interoperability for voice communications among responders in 
the field but also IP-based solutions, including providing 
grants for software, middleware and network-based solutions 
that enable interoperable voice and data communications among 
individuals and organizations.
    I look forward to discussing these issues with you, and I 
yield back the balance of my time.
                              ----------                              


  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas

     Mr. Chairman, thank you for calling this NTIA oversight 
hearing.
     I'll start off by thanking Assistant Secretary Kneuer for 
releasing the NTIA rules on the digital-to-analog converter box 
program. The rules were universally applauded by the broadcast, 
consumer electronics, cable, and retail industries and by me. 
Under the rules, all U.S. households that feel they need a 
subsidized converter box may request one or even two, and the 
cost will be subsidized from the first $990 million allocated 
to the program. If it becomes necessary to tap the remaining 
$510 million, only homes that get their television signals 
exclusively over the air will be eligible. That's to ensure 
that converter boxes go to those who really need them.
     It should not be necessary to access that additional 
money, however. Broadcasters tell us that only 25 percent of 
exclusively over-the-air homes and only 15 percent of cable and 
satellite homes will feel they need a subsidized converter box. 
Over-the-air homes tend to have two televisions and cable or 
satellite homes tend to have one television that is not 
connected to the pay service. Using the broadcasters' 
projections and the 2005 FCC estimates of the number of over-
the-air, cable, and satellite homes, we should need 21.6 
million subsidized boxes. We can easily exceed that figure by 
nearly a million boxes using just the initial $990 million 
allocated to the program, which can fund 22.5 million 
converters, including administrative costs. And the consumer 
electronics industry--the ones actually building and selling 
the boxes--thinks the demand will be considerably smaller. I'd 
also like to point out that starting now, anyone who wants to 
buy their own $60 converter box could accumulate the requisite 
wealth before the transition date by feeding their piggy banks 
a dime a day.
     Turning to interoperable communications, I urge Secretary 
Kneuer to continue his focus on the public safety grant program 
we created in the DTV legislation last Congress. Using NTIA's 
considerable telecommunications expertise and lessons learned 
from the mistakes of others, this $1 billion could go a long 
way to ensuring our firefighters, police and other first 
responders can communicate with each other--and with us--when 
we need them most. I was also glad to see that NTIA is 
consulting with the Department of Homeland Security, as we 
required, and making the most of DHS's administrative resources 
to minimize burdens on public safety officials, while retaining 
ultimate decision-making authority.
     I am also eager to hear from our second panel on how we 
can best maximize that money and the 24 MHz of spectrum we have 
given to public safety. The proposals appear to require varying 
degrees of funding, spectrum, and disruption to the balances we 
struck in the DTV legislation. We must determine which of these 
proposals, or others, most effectively address the 
interoperability problem.
     I yield back.
                              ----------                              


   Prepared Statement of Hon. J. Dennis Hastert, a Representative in 
                  Congress from the State of Illinois

    Thank you, Mr. Chairman.
     I would like to welcome the Assistant Secretary for 
Communications and Information, NTIA's Administrator, Mr. 
Kneuer, here today. I look forward to getting an update on the 
converter-box program and to hearing from the second panel on 
how best to use the money and spectrum allocated to public 
safety.
     As part of the Deficit Reduction Act of 2005, Congress 
passed the Digital Television Transition and Public Safety Act. 
It ensures a smooth transition from analog to digital for 
Americans. It provides up to $1.5 billion to support the 
digital-to-analog converter box program. I want to applaud Mr. 
Kneuer for recently releasing rules that will make coupons 
available to all Americans and for working closely with 
industry to determine the specifications for the converter 
boxes, as well as coupon distribution, consumer redemption, and 
retailer reimbursement.
     The DRA also makes $5 million available for DTV consumer 
education. This was just one of several consumer education 
provisions in the original language of the legislation. 
Unfortunately, the other provisions were stripped by the Senate 
on procedural grounds. Mr. Barton, Mr. Upton and I have 
introduced H.R. 608, the DTV Consumer Education Act of 2007, to 
replace these important consumer education provisions. 
Additionally, I am pleased that the cable, broadcast, consumer 
electronics and retail industries have launched their own 
consumer education campaigns.
     Additionally, I want to highlight that the DRA freed 24 
MHz of spectrum for public safety, as recommended by the 9/11 
Commission. It also created a $1 billion grant program to help 
public safety deploy new interoperable communications systems. 
This will allow local, county, state, and Federal public safety 
agencies the ability to communicate with each other across all 
jurisdictions. To ensure public safety receives these benefits 
and make our Nation safer, it is critically important to 
preserve the February 17, 2009, DTV transition date and ensure 
that the auction proceeds on schedule.
     Thank you, and I yield back my time.
                              ----------                              

[GRAPHIC] [TIFF OMITTED] 39839.001

[GRAPHIC] [TIFF OMITTED] 39839.002

    Mr. Markey. Our first witness is John Kneuer, who is the 
Assistant Secretary for Communications and Information, 
National Telecommunications and Information Administration. We 
welcome you, sir. Please begin whenever you feel comfortable.

      STATEMENT OF JOHN M.R. KNEUER, ASSISTANT SECRETARY, 
COMMUNICATIONS AND INFORMATION, NATIONAL TELECOMMUNICATIONS AND 
    INFORMATION ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Kneuer. Thank you, Chairman Markey, Ranking Member 
Upton, Speaker Hastert, members of the subcommittee. If my full 
written statement will be made part of the record, I will just 
summarize.
    Mr. Markey. Without objection, your full written statement 
will be included in the record.
    Mr. Kneuer. And I won't summarize my entire testimony, but 
I do want to talk about three areas of particular interest to 
the committee and also to the American people.
    First, I would like to address the two large programs 
related to the DTV transition that we have responsibility for: 
the Public Safety Interoperability Communications Grant Program 
and the DTV Converter Box Program. I would briefly like to talk 
about the administration's comprehensive broadband policies and 
the progress we have been making towards maintaining the most 
innovative and competitive broadband marketplace in the world.
    The Balanced Budget Act of 2005, as amended by the Call 
Home Act, entrusts NTIA with unprecedented operational and 
grant making responsibilities. In meeting these 
responsibilities and implementing these programs, I have been 
guided by three main tenets: the intent of Congress, as 
reflected in the plain language of the statute and the 
Congressional Record; the input of the impacted constituencies 
as developed in our administrative record; and the core 
expertise and judgment of the experts within the agency.
    I welcome this opportunity to engage the committee in a 
dialog about these programs. I am confident that working 
together, we can ensure the completion of the DTV transition is 
a success for all Americans. The most important public policy 
outcome of the completion of the DTV transition is the delivery 
of critical resources to first responders. The end of the 
analog TV transmission will free up 24 MHz of critical 
spectrum, and the PSIC program will deliver $1 billion in 
auction revenue to first responders.
    As you are aware, NTIA has executed an MOU with the 
Department of Homeland Security to procure certain grant making 
capabilities and consistent with congressional guidance to 
coordinate policies, plans to ensure that this program does not 
conflict with other ongoing public safety interoperability 
programs. That being said, the MOU makes it explicitly clear 
that all final decision making authority, all accountability, 
reside within the Department of Commerce.
    I am personally committed to ensuring that the 
communications policy and technology expertise of NTIA be 
brought to bear to ensure that public safety agencies around 
the country have the flexibility to leverage powerful new 
technologies to achieve the most efficient solutions to their 
respective interoperability challenges so long as these 
solutions are demonstrably effective. We will continue to work 
closely with the public safety community across the country and 
our colleagues across the administration to achieve this goal.
    Last week NTIA also published its final rules in the DTV 
Coupon Program. These rules provide guidance for industry 
participants, including converter box manufacturers and 
retailers, as well as for consumers who may choose to 
participate in the program as their means of effecting the DTV 
transition. Last week we also published a request for proposal 
for services for the fulfillment of this important program.
    I have been extremely encouraged by the response from 
industry. Within a day of our rule announcement, at least two 
manufacturers announced plans to produce set-top boxes and put 
them in the marketplace with prices around $60. Likewise, the 
consumer electronics industry, the cable industry, the 
broadcasters, have announced a broad consumer education 
campaign to inform and educate consumers about the transition.
    With respect to broadband, the President articulated a 
clear goal for his administration and for this country for 
universal and affordable broadband by 2007. In furtherance of 
this goal, we have adopted a comprehensive set of fiscal, 
regulatory, spectrum and technology policies designed to 
encourage innovation and investment in broadband services and 
applications. By deregulating new broadband deployments by 
incumbents, we have created incentives for new fiber 
investments in competition with cable.
    By making new spectrum available on both a licensed and 
unlicensed basis, we have been able to innovate wireless 
broadband services to enter the market. By measuring and 
studying BPL deployments, it has been possible for BPL to 
mature into a viable new competitor in many markets in the 
country.
    As a result of these policies, broadband growth in this 
country has been remarkable. According to the FCC, we added 
more than 13 million broadband subscribers in the first 6 
months of 2006, bringing the total number of broadband lines to 
nearly 65 million. During that time, deployments of fiber, 
wireless and broadband power line systems grew by more than 500 
percent. With the most competitive broadband over marketplace 
in the world, we will have the most innovative, affordable and 
accessible broadband marketplace in the world.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Kneuer follows:]
    [GRAPHIC] [TIFF OMITTED] 39839.012
    
    [GRAPHIC] [TIFF OMITTED] 39839.013
    
    [GRAPHIC] [TIFF OMITTED] 39839.014
    
    [GRAPHIC] [TIFF OMITTED] 39839.015
    
    [GRAPHIC] [TIFF OMITTED] 39839.016
    
    [GRAPHIC] [TIFF OMITTED] 39839.017
    
    Mr. Markey. Thank you, Mr. Kneuer, very much. Chair 
recognizes himself for a round of questions. Mr. Kneuer, your 
new rules will set aside $990 million for all consumers, 
whether they have free TV, cable or satellite, in order to 
qualify for this converter box program. And then after that 
money is expired, only $510 million is left for exclusively 
free over-the-air consumers, that is people who don't have 
cable, don't have satellite. You are saying that the NTIA is 
committed to this program, but you had to make this decision of 
slice off the money in this way. If there was another billion 
dollars in the program, would you have changed unlimited 
eligibility in the middle of the transition?
    Mr. Kneuer. Our analysis was based on the resources that 
the statute currently provides. The data that we have on the 
numbers of set-tops, of analog television sets and the 
potential consumer take rates and the changes in the 
marketplace seem to indicate that the billion dollars ought to 
cover the consumers who choose to take advantage of the 
program. That being said, if the demand for the program exceeds 
that billion dollars, we did, in fact, shift to make sure that 
to the extent possible, no household that would otherwise lose 
television service altogether and wanted to take advantage of 
this program would be left without those resources.
    Mr. Markey. So you are saying no home will be 
disadvantaged?
    Mr. Kneuer. What we are saying in the rule is that given 
the best estimates of current consumer demand, we wanted to 
make it as unlikely as possible that any household that wanted 
to avail themselves of this program who would otherwise not 
receive television through a different distribution medium 
would have access to the program.
    Mr. Markey. I understand that, but again, millions of 
analog sets have been sold in the last several years to people 
who live in cable and satellite homes. My brother-in-law gave 
me an analog TV set 2 years ago for Christmas. He didn't know. 
So it could be that millions of people are left without this 
converter box being made available to them, and I think that 
the Congress did not put aside enough money for this program.
    Let me move on. It is my understanding that consumers will, 
that the coupons are going to be available in 9 months. They 
will be available on January 1, 2008, in 9 months. What level 
of confidence do you have that the retailers will have 
converter boxes on their shelves in 9 months so that the 
consumers can use these new coupons to get the converter boxes?
    Mr. Kneuer. Well, I think the response from industry was 
really immediate. It wasn't the very afternoon that we released 
the rule, it was the next day that we had multiple 
manufacturers announcing firm plans. One of the benefits and 
one of the things that came out of the record, as we developed 
our record, we had very broad consensus among manufacturers on 
what would be the most effective standards to adopt. We went 
largely with the industry guidance, so I think----
    Mr. Markey. No, see my question is this. On January 1, in 9 
months, you are going to make these coupons available. Under 
your rules, the coupons will only last for 3 months. So here 
you have the diversity of America up here, from New York City 
to rural America. How can you be sure that in 9 months these 
converter boxes are going to be on the shelves of the stores in 
all of America?
    Mr. Kneuer. The only assurance I have is the expressed 
intent of industry to take advantage of this program. The 
program creates a billion dollar market, up to $1.5 billion.
    Mr. Markey. I understand, but see, my problem is this. 
Under your rules, the coupons expire in 3 months.
    So if, in 9 months, someone has the coupon given to them 
and they go into their store in rural America, the inner city, 
and there is no converter box 90 days later the coupon is now 
worthless and this person with analog----
    Mr. Kneuer. I am sorry. I understand the question now. The 
statute calls for us to make coupons available by January 1. If 
it turns out that there is a manufacturing difficulty, there 
aren't boxes there and consumers submit requests into the 
program, we would not redeem those--deliver a coupon to the 
customer until we had data from the retailers that there were 
boxes in place so that consumers don't get a coupon that starts 
expiring before their box is there.
    Mr. Markey. Why don't you just give them the coupon and if 
they want to buy the converter box in the first 3 months or the 
first 6 months, that it won't expire? Why set a 3-month 
deadline?
    Mr. Kneuer. It is statutory. Three-month expiration is in 
the statute.
    Mr. Markey. Do you agree with that?
    Mr. Kneuer. It is in the statute. I mean, I think it does 
make sense to have a limit so that we can track those monies. 
If a consumer requests a coupon, we now draw down, in our 
accounting the program, if it sits there, we could be 
withholding resources to other consumers while somebody has it 
sitting in a drawer and it is never----
    Mr. Markey. Again, this statute, which I did not support, 
it just makes no sense to me. You are going to lead people into 
complete confusion after a 3-month period. You are going to 
have people all over America saying I need a converter box, it 
doesn't work, where do I get another one and your agency is 
going to be instructed to say that you are not eligible. This 
statute just isn't well thought out. My time has expired. Let 
me recognize the gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Kneuer, for your testimony. I 
just want to clarify one thing with Mr. Markey, whose brother 
gave him that nice TV.
    Mr. Markey. By the way, my brother-in-law. My brother would 
never give me a TV.
    Mr. Upton. Thank God for your sister. I don't know that Joe 
Barton has cable, but you have cable, right? So your analog set 
will work, so you won't need that converter box, right?
    Mr. Markey. Not if my analog set is not plugged in, so I 
think in many homes, in that spare bedroom there is an analog 
TV set that is not attached to cable.
    Mr. Upton. I am going to call Comcast to make sure you got 
cable in your bedroom.
    Mr. Kneuer, as we debated this issue in the last Congress, 
it was our belief, and we heard it from the FCC, as well, that 
we thought that the amount for the subsidy would take care of 
the folks that really need the converter box. In essence, $1.5 
billion. And you all have come up with a plan, in essence, two 
levels. Everyone is eligible for up to $990 million expense. 
And then after that, the 510, the consumer only has to check a 
box that they do not have cable or satellite, is that right?
    Mr. Kneuer. That is right.
    Mr. Upton. I mean that they actually don't subscribe to it. 
It could be available in that area, but they just say that they 
don't have it at their house, it is just a check off, and at 
that point they can get the coupon and go get the box, is that 
right?
    Mr. Kneuer. That is correct.
    Mr. Upton. And there would be nothing to prevent you if, in 
fact, somehow you reached that $1.5 billion, there would be 
nothing to prevent the administration from saying well, we have 
got a supplemental. We know that these things come up all the 
time. There would be no reason for the administration to say 
that we might need another $50 million or $20 million or 
whatever it might be on top of this billion and a half to 
continue the program if, in fact, we looked at bumping that 
ceiling, is that not right? Or Congress, of course, could do it 
without the request, as we are seeing this week with a number 
of different things.
    Mr. Kneuer. One of the things that we were very focused on 
in the design of this program is being able to collect real 
time market data on what the demand trends look like; how many 
consumers are asking for these boxes; what the redemption rate 
of the coupons looks like, so as we are gathering that data in 
anticipation of looking at whether or not it is necessary to 
even request the additional $500 million, we will have real 
time data, and we will certainly be sharing that data with the 
Congress as it comes in so we can collectively make decisions 
about that.
    Mr. Upton. Good. I look forward to that. Now, do you think 
that the availability of the low cost set-top boxes from the 
cable operators would enhance your ability to manage the 
converter box program?
    Mr. Kneuer. I certainly think any increased distribution of 
boxes to consumers from whatever quarter will certainly ease 
the pressure on the program. There are a number of consumer 
choices for consumers and how to achieve this transition for 
themselves and if cable is their choice and there are low-cost 
cable options, that takes pressure off this program.
    Mr. Upton. Now you said in your testimony that the 
converter box program was welcomed by the industry. You said it 
was a very positive response. You heard from, I think you said 
two different manufacturers that they could hit within the--are 
there more folks in the industry that you intend to hear from?
    Mr. Kneuer. In developing our record, we heard from several 
manufacturers who expressed an interest in participating in 
this. So I would expect there will be more than the two.
    Mr. Upton. OK, great. Thank you. No more questions.
    Mr. Markey. Gentleman's time has expired. The gentlelady 
from California, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman, and again, my 
apologies for leaving right after a few questions to chair 
another hearing. I want to come back to my rant in my opening 
remarks, which is that this isn't a welfare program and it 
isn't a broadcaster relief program, it is a public safety 
program. I do think it is important that we provide converter 
boxes, as promised.
    I do think it is important that we make sure nobody goes 
dark, but let us remember that what is most important is that 
people who live in neighborhoods that could any time now be 
under attack by terrorists or by some natural disaster get the 
protection they need from first responders and those first 
responders can communicate, not just with each other, but 
hopefully with other neighborhoods or the Federal Government or 
regional entities in the event of attacks. So that is what we 
are really talking about and to remind broadcasters, who are 
one of the reasons or perhaps the reason why we went through 
this elaborate exercise, also have brothers and sisters and 
husbands and wives in these same districts, so it is protection 
for them, as well.
    In that spirit, I just want to ask about some timelines for 
this $1 billion grant. My understanding is you are 
collaborating with DHS on this program, is that correct?
    Mr. Kneuer. That is correct.
    Ms. Harman. And you have some grant guidance with DHS. I 
have had conversations with DHS leadership about how all this 
is going to work because as it looks to me, the guidance is 
coming out in the summer, and the grants are coming out in the 
summer, and that doesn't give any time, at least as I 
understand it, for communities and States to do their best job 
of putting forward proposals to get the money. DHS has told me 
that that is not really what is going to happen, and I just 
want to get you on the record. What they say is going to happen 
is that the guidance is going to come out in June or July, that 
some planning money is going to be distributed in September at 
the end of this fiscal year, but the real grants are going to 
be made at the end of this calendar year. Is that your 
understanding?
    Mr. Kneuer. The amendments to the Deficit Reduction Act in 
the Call Home Act that accelerated the timeframe for this 
program, that the monies need to be awarded by the end of this 
fiscal year, requires us to design this more as a formulaic 
kind of program than perhaps we otherwise would have, making it 
more competitive or otherwise. So the grant guidance that will 
come out in the summertime will be an announcement of basically 
the amount of money that each State is entitled to under this 
program.
    Those grants will be conditioned upon the States completing 
their plans, having demonstrated the ability to say OK, we have 
identified our existing capabilities, the gaps in our 
capabilities. We have got a plan to fund those gaps and that 
they are going to be effective, and so the awards will come out 
by the end of this fiscal year, but those awards will be 
conditioned upon the States concluding their plans and having a 
demonstrated ability to fill the gaps so that we actually do 
raise the level of interoperability across the country.
    Ms. Harman. Which means the money will not be transferred 
at the end of the fiscal year----
    Mr. Kneuer. The awards will be made by the end of this 
fiscal year, and there will be, at that time, a portion of 
money will be distributed to help them with the plans, but the 
actual money goes out as is very typical for Federal grant 
programs. You get the award, but you don't actually get the 
check until you have demonstrated that you have met the 
conditions of the grant. So the monies will go out over a 
period of time, but the awards will be made by the end of this 
fiscal year.
    Ms. Harman. OK. Well, you are the banker, but you are not 
the guy who makes the decision about who gets the grants, is 
that correct?
    Mr. Kneuer. I am the guy who makes the decision about who 
gets the grants.
    Ms. Harman. You are the decision maker. Well, then I would 
urge again that what we are hopefully funding is not operable 
communications operability systems, but communications 
interoperability systems, and the challenge to you and the 
challenge to people who will testify in panel 2, I am very 
sorry I am going to miss your testimony, is to figure out how 
we make it possible to create true interoperability and how we 
move forward, not backward, and make certain, for example, in 
the case of near simultaneous attacks around the United States, 
which is a possibility right now, in that event, we have an 
interoperable system so that the resources of Federal, State, 
regional and local entities can all be brought to bear to make 
certain we offer the maximum protection to citizens.
    Mr. Kneuer. I completely agree, and one of the largest 
areas of progress that we have made over the past number of 
years is doing a much better job at measuring the problem. This 
has been an identified problem for a very long time but not 
very well measured. So now we have the scorecards from the 75 
urban area security initiative regions, we will have the State 
plans. Those scorecards identify the gaps in interoperability. 
Now, there are always going to be additional operability 
communication needs for first responders, and they should 
continue to serve those. This program is intended to fill in 
the defined gaps in interoperability, and that is what we are 
focused on.
    Ms. Harman. Thank you and thank you, Mr. Chairman. This 
grandmother will be watching.
    Mr. Markey. The gentlelady's time has expired. The 
gentleman from Nebraska, Mr. Terry.
    Mr. Terry. Thank you very much, Mr. Chairman. I just need 
help working through this. On the interoperability side, 
following up on the questions by my friend from California, I 
am trying to get my arms around this, my mind around it. I came 
from city council, and we dealt with some interoperability 
issues so police could talk to sheriff and police could talk to 
fire in two different counties. Didn't work out all that well.
    But also, since I have come here and we have dealt with 
this issue in the last couple years, of interoperability, and 
dedicated these funds, my office has had a parade of different 
types of technologies parade through that seem to have the 
magic solution or the silver bullet which seemed to also, then, 
have an array of, from seemingly affordable price tags to it to 
astronomical.
    So my question is, is on your grants or even a formulary, 
is there going to be a best practices, what you feel is the 
best technologies to fill those gaps so we aren't just sending 
grants to some communities that have chose, perhaps, the most 
expensive and perhaps even maybe the least practical 
technologies out there?
    Mr. Kneuer. There are certainly a host of new technologies 
that are being introduced to address this problem. And to my 
mind, it really has been one of the benefits of the focused 
attention of the Congress and the administration and others on 
this problem, is that the class of market participants who 
otherwise weren't really thinking about the public safety needs 
are now getting into the marketplace and presenting new 
solutions.
    In this program, I want first responders in different 
localities to have the flexibility to choose the solution set 
that makes the most sense, given their state of incumbent 
capabilities, but at the same time, while there is enormous 
promise to many of these technologies, we need to be mindful 
and careful that they are, in fact, effective and that they 
don't exacerbate the problem by walling off other systems if 
somebody picks a creative solution for their jurisdiction and 
it is incompatible with the neighboring jurisdiction.
    And again, I can't underscore enough the ultimate issue is 
the effectiveness of the solution, not necessarily the 
efficiency of the solution, although efficiency is important. 
You don't want to send a fireman into a building with a beta 
system. It has got to be a demonstrated, proven solution that 
the public safety community endorses. But there are absolutely 
a number of efficient and effective solutions that they can 
choose from.
    I don't know that we should be dictating what those 
solutions are. There is a great scope and breadth of different 
localities with different needs, and so I am not sure it makes 
sense for me to be dictating what the best solution is for 
their needs, but I want them to have the flexibility to choose 
the best solution for their needs.
    Mr. Terry. It is a difficult position to be in, especially 
as a free marketeer as I am, but I fear that some communities 
may be ``taken,'' or on the flip side of that, we are going to 
be paying for the golden Cadillac when we didn't need to pay 
that price, therefore leaving other communities without 
sufficient dollars or a program without sufficient dollars, so 
I would like to find some way to find a happy medium. Maybe a 
cafeteria style, a menu list of certified or approved items 
that they can use and have some assurances that it is workable, 
that they won't be taken and that we aren't then cheating 
others so that some communities could have the most expensive 
program.
    Mr. Kneuer. Those are the sorts of things that we do at our 
labs in Boulder in examining these technologies and giving 
public safety a sense of these are the things that are out 
there that work and are effective, and they have a better sense 
of----
    Mr. Terry. Your labs are in Boulder?
    Mr. Kneuer. Yes.
    Mr. Terry. Well, that counts against you, as a Husker. The 
other question is on the cable boxes. I need to work through, a 
little bit more, on what Fred brought up and some discussions 
that we have had from various vendors about the rules making 
what boxes will be eligible for the program eliminates some of 
the, what I would say, the lower end or boxes that could be 
cheaper. First of all, before I ask that, go into that 
question, specifically, are we assuming that anyone that has 
cable TV or satellite TV, that their vendor, their cable or 
satellite provider will provide them, free of charge, a set-top 
box so that they can continue to watch the product that they 
are paying for? And will not be part of this program?
    Mr. Kneuer. The subscribers to cable and satellite, for the 
televisions that they have hooked up to cable and satellite, 
should have the transition essentially accomplished for them 
through that service arrangement.
    Mr. Terry. All right. So a voucher, a coupon, whatever we 
are going to call it, that won't go towards a cable box, a set-
top box?
    Mr. Kneuer. No.
    Mr. Terry. All right, so it is your understanding, my 
understanding that it is only for the free over-the-air 
television set?
    Mr. Kneuer. Yes. The coupons are to fund converter boxes 
that enable a television that is currently receiving signals 
over the air to continue to receive signals over the air and to 
convert them to analog for the analog set.
    Mr. Terry. And is it part of your rules of the use of that 
voucher that it can't be used for the higher end set-top boxes 
that could be a combination of let us say, a DVD player or a 
DVR?
    Mr. Kneuer. That is right. The statute limits the class of 
boxes, left it to us to establish the standards for what those 
boxes are. Our rules have categories of what is eligible, but 
the things that are not eligible would be things like DVRs, 
DVDs, video game functionality, anything like that. It has got 
to be the base functionality to accomplish the digital-to-
analog conversion and nothing else.
    Mr. Terry. I have also been told that there can be very 
basic, small sized converter boxes that could be as cheap as 
$30, but the rules don't allow that to be done. Are you aware 
of what that argument----
    Mr. Kneuer. No, if market forces bring the prices of a box 
below $40, then the consumer will present that $40 coupon, they 
won't have any co-payment. They won't get the change. You don't 
get to put in a $40 coupon and get $10 back, but if it is $30, 
that is acceptable.
    Mr. Terry. But the argument was that the criteria set for 
the set-top boxes don't allow for just the very simple 
converter boxes.
    Mr. Kneuer. They are explicitly designed to fund the simple 
box that will be inexpensive for the consumer.
    Mr. Terry. Thank you.
    Mr. Kneuer. Thank you.
    Mr. Terry. I yield back.
    Mr. Markey. Gentleman's time has expired. Gentleman from 
New York, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Mr. Secretary, I would 
like to start with the Public Safety Interoperable 
Communications Grant Program. I am very concerned that the NTIA 
has entered into a Memorandum of Understanding with the 
Department of Homeland Security. NTIA plans to use DHS's 
resources to help design the grant guidance for the 
interoperable program. Currently, as we know, DHS determines 
funding based on a formal rather than a needs assessment.
    This has often led to a discrepancy in funding. New York, 
in particular, often receives significantly less per capita 
than lower risk States. It is a source of neverending 
frustration for us in New York, and I am very concerned that 
NTIA will follow DHS's current funding formula. So Mr. 
Secretary, can you tell me, will the NTIA administer funds 
based on a risk assessment or another funding formula?
    Mr. Kneuer. The program is going to be formula based, given 
the constraints in the Call Home Act. We will, in fact, look to 
the DHS formula as a starting point. We have talked with them 
about how best we can look at that formula, see if there are 
adjustments that can be made. Our intent would be to share 
those thoughts with Members of Congress, with perhaps focus 
groups of the public safety community to say these are the 
kinds of things we are looking at.
    But we are working at adjusting the formula to see if we 
can come up with one that makes the most sense for this 
program, given that this is a Commerce Department program. It 
is a different program intended to raise the level of 
interoperability across the country, but we are using it as a 
starting point.
    Mr. Engel. So then you do agree, it is accurate to say that 
you do agree that a risk assessment would be a more reliable 
indication of need than the DHS formula?
    Mr. Kneuer. I don't know that I would say that the risk 
formula is the only or the best way to look at this. This is a 
program designed for everyone. There is, as Ms. Harman was 
saying, we need to raise the level of interoperability across 
the country. That being said, there are areas of the country 
that have much more express needs, but that is why we are going 
to look at the formula, see if there is a rational way that we 
can adjust it, and we will be sharing our processes with you as 
we go through them.
    Mr. Engel. OK. Well, I want to very, very strongly--and I 
think I speak for all of New York on a bipartisan basis that we 
are very frustrated with the DHS formula, and we really think 
that a risk assessment would be a much more reliable indication 
of need. It is just 5 years later, just a source of neverending 
frustration. We know that New York is obviously the biggest 
target, and why this doesn't happen more quickly is just 
something that boggles my mind.
    Let me ask you this, also. The Deficit Reduction Act of 
2005 set aside only $5 million for consumer education for the 
digital TV transition out of what the Congressional Budget 
Office conservatively estimated to be $10 billion in auction 
revenues. That is $5 million out of $10 billion. Many of us on 
this committee believed at the time that $5 million was 
woefully inadequate to accomplish the task of educating the 
American public about the DTV transition and what they need to 
do to make sure that their televisions don't go dark.
    As we get closer to the date of February 2009, my view, 
shared by many of my colleagues on this side of the aisle, is 
that $5 million for consumer education is absurdly inadequate. 
So do you agree with me, that $5 million is insufficient to 
educate consumers all across America about the DTV conversion? 
When I mentioned this last week to the Commissioners, they sort 
of punted on it and said well, it wasn't only their 
responsibility.
    Mr. Kneuer. We are leveraging that $5 million on educating 
consumers about the existence of this program. I think you 
rightly underscore that this is a consumer education need and 
these are the consumers of the cable industry and the consumer 
electronics industry and the broadcast industry, and they have 
enormous responsibilities to educate their consumers on the 
impacts of this transition. They have made announcements and 
have launched a group working together to expend considerable 
resources on that.
    I am encouraged by the activities they are undertaking. I 
intend to remain very vigilant of the activities that they are 
using. We are working closely with them so that we can leverage 
that broader industry campaign, to leverage our $5 million so 
as they are educating consumers about the transition, they are 
also making consumers aware of the eligibility program.
    Mr. Engel. Well, let me just say, because my time is 
running out, that I really think that Congress needs to 
increase funding for consumer education for the DTV transition, 
and I want to add my voice to what Ms. Solis said before about 
communities that, households that are most vulnerable to being 
left in the dark by the DTV transition; non-English speaking 
and lower income households are the very households least 
likely to have Internet access, and because you are relying so 
heavily on the Internet to ensure that consumers learn, I think 
that is a very, very grave mistake. Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired. Chair 
recognizes the gentleman from Illinois, Mr. Hastert.
    Mr. Hastert. I thank the chairman. I just want to follow up 
on that. First of all, consumers are the customers, right? And 
if the cable companies don't keep their customers, they lose 
revenue, right? So they have a role to play in making sure that 
these customers, whether they are Spanish-speaking customers or 
if they are customers, anybody that they have, that they go out 
and reach them.
    So there is an economic impetus there, and so the $5 
million ought to be used for other means where you can get 
people that probably won't be reached by, I would guess be 
constantly bombarded by the TV set. If you have one of those 
things on, you keep it on. So I share the concern of my 
colleagues across the aisle, but I don't think it is quite a 
concern, because it is just the economics of it. If you don't 
keep your customers online, you lose revenue.
    I want to go back to the agreement on February 16. You and 
the DHS signed a Memorandum of Understanding to implement the 
$1 billion Public Safety Interoperable Communications Grant 
Program. What makes DHS the best agency to work with?
    Mr. Kneuer. They clearly have the grant making apparatus 
and the expertise with regards to the operational needs of the 
first responders. The SAFECOM office, which has been working on 
dealing with first responders on their communications needs is 
housed within DHS. I think the report language of the statute 
directed us to work collaboratively with DHS to make sure that 
this program, while separate and housed within the Department 
of Commerce, is not inconsistent with or in conflict with other 
ongoing grant making programs within the Department of Homeland 
Security.
    I think there is a recognition that the public safety 
community has become accustomed to and has systems in place to 
interface with the Department of Homeland Security for a 
variety of grants, not just the communications grants. So to 
any extent possible, they should use a similar process to the 
one that they are using for other Federal grants.
    The plans that have been put in place to identify 
interoperability needs were submitted to the Department of 
Homeland Security, so they are the natural partner for us in 
the execution of this program. But again, to underscore, this 
remains a Department of Commerce program, and all the ultimate 
decision making authority resides in the Department of 
Commerce.
    Mr. Hastert. So the agency that will establish the policy 
rules to implement the PSIC grant program will be the 
Department of Commerce?
    Mr. Kneuer. We are going to work with the Department of 
Homeland Security to develop those policies collaboratively, 
but the ultimate policy decisions remain mine.
    Mr. Hastert. And what is your timetable?
    Mr. Kneuer. Under the Call Home Act, the grants need to be 
awarded by the end of this fiscal year, so we hope to have 
grant guidance coordinated and distributed sometime in the 
summer.
    Mr. Hastert. Now, we talk about different technologies that 
are out there, and you have to make those decisions. What kind 
of different technologies are there?
    Mr. Kneuer. Well, there are the Internet overlay 
technologies, there are a variety of different service-based 
solutions that provide very effective, efficient interim 
solutions, so as you have embedded incumbent infrastructure--
Mr. Engel was talking about New York City, where they have got 
massive investments in the 400 MHz band. They have an ability 
to have gateways that would allow those 400 MHz systems to 
communicate with the 700 MHz systems or responding to 900 MHz 
or others that are those sorts of technologies. So there are a 
host of different solutions as we pursue immediate 
interoperable communications capabilities, and then as, in the 
ordinary course and the replacement of their infrastructure, 
moving on more towards----
    Mr. Hastert. I represent an area that has three old 
industrial cities with fairly sophisticated public safety, and 
then I go out in the rural areas that stretch from the Chicago 
suburbs all the way out to the Mississippi River, so I got a 
lot of little towns. Now, those little towns, a lot of times, 
come to the support of the big ones and vice versa, even though 
there is a lot of miles, but they also will interact with each 
other. When it was barn fires, you would get seven communities 
out there. We don't have barns anymore, but we still have those 
types of problems. Will those towns, if they pick out different 
technologies, will those technologies be interoperable? Or must 
they be?
    Mr. Kneuer. As we are considering different technology 
solutions, the required condition of these different 
technologies is they all provide interoperable solutions in 
that they do not exacerbate the problem by closing off a 
jurisdiction from its neighbors or from others.
    Mr. Hastert. And you will be setting price or cost limits 
on these technologies, right? Especially community size.
    Mr. Kneuer. We would not intend to set cost limits for 
jurisdictions. There are different solutions in different 
jurisdictions that are going to be dictated by the facts on the 
ground, but I don't believe our intent would be to say you can 
choose a solution but----
    Mr. Hastert. Well, it goes back to my friend from Nebraska, 
what he was talking about is, I have fire departments that 
sometimes compete in how much gold leaf they can put on their 
fire engines. It is a kind of competition. We don't want to get 
into that type of situation.
    Mr. Kneuer. No.
    Mr. Hastert. I thank you. I yield back my time.
    Mr. Markey. Gentleman's time has expired. The gentlelady 
from California, Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman, and thank you, Mr. 
Kneuer, for your presence with us today. Mr. Kneuer, in my 
questions to the FCC Commissioners last week, I pointed out 
that the United States has fallen in world rankings of 
broadband deployment and access. According to the International 
Telecommunications Union, we are now 21st in the world in terms 
of digital opportunity. In 2001 we were in the top five.
    But in your written testimony, you say that our Nation is 
still the world leader when it comes to high speed Internet 
penetration, pointing to a study that found that the United 
States had nearly 55 million lines as of September 2006, while 
South Korea had 14 million lines. Mr. Kneuer, South Korea has 
49 million people, about one-sixth as many as we have in the 
United States.
    Do you mean to say that it is acceptable that, according to 
the study you cite, there are 28 lines for every 100 South 
Koreans and 18 lines for every 100 Americans?
    Mr. Kneuer. I think the question of our broadband status, 
there are a number of studies that show different rankings. I 
think it is important to keep them in context. We do, in fact, 
have the largest broadband marketplace in the world, with more 
people performing more functions and economic activity online 
in the United States than anywhere else. That is by no means to 
say that there isn't more work to be done and that we can't do 
better. Our goal has been to create an environment for a host 
of competitive actors in the marketplace, and I think we have 
been effective in doing that. I believe we have the most 
competitive broadband marketplace in the world. By making more 
spectrum available, we have licensed and unlicensed wireless 
competitors and others.
    Mrs. Capps. I just want to say, again, repeat that I find 
it unacceptable. Maybe you don't, but I think it is amazing 
that the citizens of a country that is half as rich as ours, 
South Korea, on a per capita basis, are much more likely to 
have broadband access. I am going to follow that up on a 
different tack because I think we need to get to the heart of 
why this is. And I think that your agency is where the 
President and the rest of the executive branch should turn to 
for expertise on telecommunication and information policy 
issues so that good policy can be made.
    During the 1990s, for example, NTIA alerted policy makers 
in the White House and raised public awareness, in every 
community, about the ``digital divide,'' and that was a real 
turning point in the efforts to get broadband to more people. 
The President has said that we should have ``universal and 
affordable access for broadband'' by this year. I think we 
would all agree with that goal. I surely do. NTIA, however, 
doesn't have good data as to who in our country has or doesn't 
have access to broadband.
    And you don't know how much people are paying who are lucky 
enough to have it. Those are questions, I think, that the 
President, the executive branch, all of us, should have the 
right to have information about. How can you properly do your 
job, Mr. Kneuer, as principal adviser on these issues to the 
President, when you don't know, specifically, who has broadband 
access in the United States?
    Mr. Kneuer. The challenge of coming up with that kind of 
really concrete data, the census would do these reports, and 
they were census reports, they were huge samples, and when the 
reports came out, they gave really good data on a snapshot in 
time about 2 years old. And given the rapid growth in this 
marketplace, trying to make policy decisions on data that old 
really doesn't make as much sense.
    Mrs. Capps. Let me just follow that up. That gets to the 
point. Shouldn't the agency you head, NTIA, be doing more to 
map which areas have broadband and what kinds of broadband they 
have?
    Mr. Kneuer. Doing that in a rigorous way, to go out and to 
canvass the country, you find that the data you collect, while 
authoritative, is outdated. So you will create a very good 
picture of what the broadband marketplace looked like 18 months 
ago.
    Mrs. Capps. So you are saying that your agency doesn't have 
the capability of getting data in real time or close to real 
time?
    Mr. Kneuer. For that sort of broad, concrete consumer 
activity, no. Not in the time that would be relevant for a 
decision maker.
    Mrs. Capps. Do you think it would be a worthwhile goal to 
find a way to approach that?
    Mr. Kneuer. We can always be more granular in our analysis 
on these, but in a marketplace where, for example, we added 15 
million new broadband subscribers in just the past 6 months, 
any time you start to gather the data, the FCC's numbers come 
out every 6 months, and they are always considerably out of 
date. You have always got much, much more rapid activity in the 
marketplace.
    Mrs. Capps. I would urge that your agency be the one to try 
to find a faster way to get this information. Also, the 
information that you just got, though it may be old, do you 
know how much people were paying for their access to the 
broadband, those that were surveyed, even if it was a little 
bit dated?
    Mr. Kneuer. There is some market data on those sorts of 
things, yes, but again, it is not the level of granularity 
where you would say in the community the average price is.
    Mrs. Capps. I would like to hear more information on this 
topic. Thank you.
    Mr. Markey. Perhaps you could provide that for the record.
    Mr. Kneuer. Sure.
    Mr. Markey. Thank you.
    Mr. Markey. The Chair recognizes the ranking member of the 
full committee, Mr. Barton from Texas.
    Mr. Barton. Thank you, Mr. Chairman. I sincerely appreciate 
you holding this hearing along with Ranking Member Upton. This 
is one of the more visible things that we have done in the last 
several years, the move to an all-digital network, and we are 
looking forward to February 2009, and it is important that we 
have an oversight hearing like this to see what the progress 
is. I want to ask unanimous consent, before I ask my questions, 
that I can submit several questions for the record for 
Congressman Radanovich, who can't be here today. He is a member 
of this subcommittee, but his wife is undergoing chemotherapy 
treatment and asked that I ask that he could submit some 
questions for the record.
    Mr. Markey. Without objection, so ordered.
    Mr. Barton. OK. First of all, I want to commend our witness 
for getting the rules out on the proposed digital transition. 
How have those proposals been received now that they have been 
made public?
    Mr. Kneuer. I have been very encouraged by the response of 
industry and affected constituencies on this. As I said, the 
manufacturers responded, essentially immediately, with plans to 
introduce boxes into the marketplace. The retailers who have an 
interest in participating in this program commended having 
certainty and the fact that the rules reflected a broad 
consensus. The broadcasters and the cable industry and the 
consumer electronics industry have all taken that opportunity 
to reassert their commitment to work within the framework that 
we adopted to make sure that the transition is a success, so I 
was very gratified by the immediate responses.
    Mr. Barton. Do you feel that the deadline for the 
transition on February 17, 2009, is on schedule? Do you think 
we are going to be able to meet that?
    Mr. Kneuer. I certainly believe that everything we are 
doing in the program is on track to meet that deadline. And 
just to underscore again, the public policy benefits that flow 
from the conclusion of this transition are manifest and very, 
very significant, and they go well beyond the broadcast 
industry, by itself. There are the public safety issues, there 
is our future innovation and competitiveness in the wireless 
industry, deficit reduction, so it is absolutely critical that 
that date be met.
    Mr. Barton. As you know, in the reconciliation package that 
the House prepared, we had a number of information requirements 
in terms of public awareness and public displays to the old 
analog television sets. As they are being sold, the last ones 
off the shelf that got stripped by the Byrd rule in the Senate, 
so Mr. Hastert and myself and Mr. Upton have introduced a bill, 
H.R. 608, to put some of those requirements back in the law. 
Does your agency have a position on that bill?
    Mr. Kneuer. I certainly believe what we have talked about 
earlier this morning. It is absolutely incumbent that the 
industries that support these consumers educate these consumers 
and be doing everything they reasonably and possibly can to 
reach out to their consumers to make them aware of this 
transition, so anything to that end is a good step.
    Mr. Barton. Now, in my last minute and 25 seconds, let us 
switch over to interoperability. I think it is fair to say that 
everybody on both sides of the aisle is very disappointed and 
somewhat perplexed that as many years as it has been since 9/
11/2001, we still have such a huge interoperability problem in 
this country. The Speaker was asking you some questions about 
that.
    There have been some proposals, legislative and otherwise, 
to cut through all that and come up with one national system. 
Do you have a position on that issue, the broader issue? Is it 
time to cut the Gordian knot and have a federalized, preemptive 
national interoperability standard in communications--both in 
terms of spectrum and also in terms of equipment--so we can end 
this foolishness that every time we have some sort of a large, 
regional emergency, we find out that the various law 
enforcement and emergency response teams can't communicate for 
whatever reason?
    Mr. Kneuer. Well, I think we have finally made significant 
progress in identifying the gaps. We have actually measured the 
problem fairly well now, and with the submission of the State 
plans that will be part of this program, we will have a real 
sense of how we can fill in each of those gaps. I think the 
conclusion of this program will go a long way towards raising 
the overall level of interoperability. I think we also need to 
remain mindful, however, that these are, at their core, local 
infrastructure that is put in place and the challenge----
    Mr. Barton. I am about to be cut off. But that is a good 
excuse 5 years ago. It is a good excuse 4 years ago. It may 
even be a good excuse 3 years ago, but it is not much of an 
excuse today because I can guarantee you, if there is another 
hurricane on the Gulf Coast or a big flood in the Midwest or 
earthquake in California, we are going to find out that the 
locals can't communicate, and they are going to blame Congress 
or the President.
    And if they can't get their act together, I hope, Mr. 
Chairman, you have shown yourself to be a man of decisiveness 
and action. I am willing, on this issue, to be just as decisive 
and just as action oriented as you are. If it is the majority's 
wish, I am a Federalist and I don't believe in preemption, to 
enact a Federal preemption, every now and then it may be 
necessary, and this may be one of those times. With that, I 
yield back and thank you for holding this hearing.
    Mr. Markey. The gentleman's time has expired. And to the 
gentleman from Texas, that is why we gave the billion dollars 
to NTIA and not to the Department of Homeland Security, so they 
could take action, put a plan in place. They are the experts.
    Mr. Barton. I might also point out, we have an oversight 
hearing going on downstairs. You guys seem to like to do 
everything at the same time, so I am going to have to run back 
down to participate in that, but I will try to come back up 
here.
    Mr. Markey. The Democrats like to demonstrate their 
capacity to be interoperable. The gentlelady from California, 
Ms. Solis.
    Ms. Solis. Thank you, Mr. Chairman. I want to go back to my 
question that I asked earlier, and basically, my understanding 
is that the Government Accountability Office has reported that 
21 million households only have over-the-air television and 
millions of other over-the-air sets are located in cable and 
satellite homes. After February 17, 2009, no matter your income 
level or ethnicity, the only TV signal that you will receive 
will be digital, and during the transition time, is it NTIA's 
responsibility to ensure that all consumers receive information 
about the coupon program to help consumers purchase low cost 
technology and to convert from analog to digital? And of the 
households that only have over-the-air television, as you know, 
about one-third are Spanish-speaking, and nearly half of those 
households earn less than about $30,000 a year. Do you really 
think that $5 million is enough funding to educate all 
consumers, including low-income, under-represented communities 
who may not even have adequate access to Internet access right 
now? Can you please give me an idea how you plan to address 
that? Also, if you have any efforts ongoing right now with 
respect to how you are going to deal with some of the Spanish 
speaking consumers that are now one of the largest populations 
that are seeking access?
    Mr. Kneuer. We currently have a request for proposal for 
contracts that includes how best to use that $5 million for 
consumer outreach, and we want to make sure that our consumer 
outreach efforts are focused on those consumers who are going 
to be least likely to be reached by the broader industry 
outreach. There are different Federal standards that measure 
the foreign language population in a given area, and if that is 
over a certain level, you should make public information 
available in that language. The day that we released our rule, 
we translated our fact sheets and our press releases into 
Spanish and had them posted on the Department of Commerce's 
Spanish language Web site, so we are clearly aware of the issue 
and intend to do everything----
    Ms. Solis. But what do you do about those households that 
don't even have access to the Internet? That won't be able to 
get on the Web site?
    Mr. Kneuer. I don't intend to focus our education efforts 
on the Internet. That being said, the Internet is very powerful 
and we will take advantage of it, but we are going to----
    Ms. Solis. But you just said that your advertisement in 
Spanish was placed on a Web site. So you are making big 
assumptions is what I am trying to get at.
    Mr. Kneuer. Well, the only place we posted our press 
release was on the Internet for anybody, but we did it both in 
English and Spanish.
    Ms. Solis. What about other efforts like radio, radio ads 
and things like that, I mean, really doing a campaign to reach 
those hard-to-serve consumers who, I think, would be dying to 
be a part of this, but because there is no material or data out 
there, you are going to miss a lot of potential consumers and 
customers that I think many marketers would really want to 
benefit?
    Mr. Kneuer. I think that is right, and I think the final 
point you made, that marketers do have an interest in reaching 
some of these consumers, so I don't anticipate that they will 
be completely cut off from the ongoing industry campaigns.
    Ms. Solis. Most Latinos do have telephones in their 
household. Would it be wise, maybe, to set up some kind of a 
hotline for them to have access to information of where they 
could call, a 1-800 number?
    Mr. Kneuer. I would expect that our education campaign will 
include 1-800 numbers.
    Ms. Solis. And again, would you have staff available, live 
bodies, not a recording, that would be able to translate or be 
able to talk to these folks?
    Mr. Kneuer. These are all the issues that we would evaluate 
as part of the proposals that come in to us. Significantly, we 
are not going to vet this contract on a price basis only. We 
are looking for the best proposals, and those are precisely the 
kinds of issues that we would be looking for in the consumer 
education proposals.
    Ms. Solis. I would love to be able to work with you closely 
on that and to make sure that we are really doing a good job of 
reaching out to the different coalitions, because it isn't just 
the Spanish speaking, but it is all the other immigrant groups. 
I also have a large Asian Chinese population that also has very 
limited access to the Internet and to many of these high tech 
equipment and gadgets that we now have.
    Mr. Kneuer. Absolutely. And we are well aware that we are 
going to need to take advantage of a host of different agencies 
and associations and groups that do reach out to others. We 
would absolutely welcome working with you or any other member 
of the committee who has thoughts on community representatives 
who can help us in that effort.
    Ms. Solis. Thank you.
    Mr. Markey. The gentlelady's time has expired. The Chair 
recognizes the gentlewoman from New Mexico, Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman. I think I have some 
similar questions to my colleague who just spoke, particularly 
on the public education campaign, and I wonder, maybe I mis-
heard what she said. Is it correct that you only have $5 
million dedicated to the public education effort?
    Mr. Kneuer. Yes.
    Mrs. Wilson. Well, in one media market in the 50th largest 
media market in the country, we spent half that in a 12-week 
period between August and November of last year, and I will 
admit that it was pretty intense, and you might want to spread 
that out, but I don't see how that is going to work. Can you 
kind of explain this a little more to me? How are you going to 
get the word out?
    Mr. Kneuer. The $5 million we intend to focus on educating 
consumers about the existence of this program. As we have said 
before, the overall consumer education campaign is one that is 
going to be driven by the industries that serve those 
consumers. So the cable industry and the broadcast industry and 
the consumer electronics industry have introduced and launched 
a widespread public education, consumer education campaign. We 
intend to leverage our $5 million resource with that broader, 
ongoing industry campaign, so the overall education of 
consumers is going to be carried out, by and large, by the 
industries that serve those consumers.
    Mrs. Wilson. I think the reality is those industry sectors 
are going to be marketing to those sectors that they really 
care about most, and frankly, the eyeballs that they care about 
are not necessarily the ones who are going to have the most 
trouble and most need for converter boxes. I mean, they are 
business people. That makes sense to me that they would be 
explaining this.
    At the same time, if you are in the Navajo Nation or if you 
are really just listening to the over-the-air, I don't see that 
as a real priority, as a business case, and I share the 
concerns of some of my colleagues that have been expressed 
here, and one of the main reasons that I voted against this 
bill is I think there are going to be a whole lot of people who 
are going to come home from work on the day these things get 
turned off in March or April 2009, I can't even remember the 
date, but I think it is before March Madness but after the 
Super Bowl, I think that is the way it ended up, and they are 
going to be really ticked because their TVs aren't going to 
work and they are not really going to know why and they are not 
going to know what to do about it, but I can tell you, my 
telephone is going to start ringing. I think we need to get 
serious about public education here, not just to the mass 
market eyeballs that they want to have come and watch the 
commercials for cars and everything else but to the folks like, 
in my district, we have one of the largest dependencies in New 
Mexico on over-the-air broadcasting of any market in the 
country, and I don't see evidence here that we are serious 
about this. And I think it is time to ramp this up and really 
focus on those who are going to need this, because right now I 
don't see any evidence that this is going to work. Thank you, 
Mr. Chairman.
    Mr. Markey. The gentlelady's time has expired. The 
gentleman from Texas, Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman, and 
welcome, Mr. Secretary. And I know this course on the February 
date, which is, I guess, the Valentine's gift from the Federal 
Government to everybody that is watching TV out there, and I 
like the thought that we have some program in place, no TV left 
behind, but I am not sure that is going to work.
    And we are concerned, on both sides of the aisle, because 
the impact, obviously, on our constituents--I keep telling 
people when these TVs go dark, that is going to be one heck of 
a welcoming committee I am going to have when I go back to my 
district, because no amount of publicizing what is going to 
happen is going to cover everyone. So we have to minimize, and 
it is really almost damage control.
    But I will tell you now and I am going to associate myself 
with all the comments regarding the inadequacy of what is being 
done out there by the United States Government, not so much the 
private sector, because I think they are going to be pretty 
aggressive about it, but I don't think that we are meeting our 
own obligation. This is what I have said as far as what I have 
received because I am a Member of Congress. I have got the FCC 
telling me what is happening; I have got the National 
Association of Broadcasters, and they are pretty aggressive; I 
got my Crutchfield catalog explaining about the TV that I might 
be ordering from them.
    But I haven't really seen any effort being made, and you 
would say maybe it is too early, but it is not too early. I 
mean, we really need to start preparing people so they 
understand. Now, certain individuals are going to be informed 
simply because they receive statements from cable or satellite 
as to what is happening. Broadcasters, those individuals that 
truly are receiving their TV signal over the antennae, over the 
public airwaves, I am not real sure how we are going to reach 
them. It is going to be a difficult one. But nevertheless, I 
just simply don't think that we are doing enough.
    By everyone's calculations, the monies that have been 
appropriated to provide the coupons will not be sufficient to 
cover the number of analog televisions out there, and that is a 
real concern, especially in my district, as well as my 
colleague, Congresswoman Solis, so having said that, I just 
don't see that in your remarks, and I apologize because I 
missed much of your testimony because I was somewhere else for 
a minute. However, I don't see that there is any initiative 
forthcoming from the administration to aggressively do its 
part.
    I know the individuals that are going to provide the 
equipment are going to do such. I know cable and satellite and 
broadcasters and so on, but I just don't see that there is 
really a concerted effort that is going to result in what we 
would like to obtain. And I don't really have a question. I 
don't want you to think that this is purely criticism. It may 
be constructive criticism. Let us know what we can do, as 
Members of Congress, believe me, on our Web sites, in our 
newsletters, at our town halls. We are putting people on 
notice. We will do that, but it is not going to be enough.
    In an area that is not related, obviously to that 
particular issue, there is a comment, I believe, in your 
testimony regarding efforts by the administration in making 
sure that we have broadband. You say the administration has 
also taken the lead to create technical standards that will 
allow the rapid deployment of broadband over power lines, BPL, 
while safeguarding existing licensees' services from harmful 
interference. I have not been able to attend all our committee 
hearings, but I think broadband over power lines, I remember 
one or two witnesses in the past year or two. What exactly are 
you making reference to, because that technology is not really 
promoted in any appreciable degree, so you are referencing 
exactly what?
    Mr. Kneuer. Sure. Broadband over power lines is very 
promising technology, and for a long time, however, there was a 
concern that widescale deployments of broadband over power 
lines would represent an interference problem to radio systems. 
You send a broadband signal over an unshielded power line and 
it bleeds off, and it can cause interference. Significantly, 
there are 57,000 Federal radio systems in the bands that could 
be subject to that interference.
    We conducted a study, using our laboratories in Boulder, to 
go out and measure all of the test BPL systems around the 
country, identified the potential for interference and 
confirmed that there was, in fact, a potential for interference 
but also went further in the study to show that that potential 
was one that could be very well understood, easily mitigated 
and worked with industry to put together saying if you deploy 
your system the following way, you shouldn't pose an 
interference concern.
    That study was then incorporated into the FCC's rules, 
which created both now technical and regulatory certainty that 
BPL could be widely deployed in the marketplace, and I think we 
are seeing the results of that now. There have been significant 
announcements in Texas, as a matter of fact, of very widescale 
broadband over power line deployments.
    I think the utility industry is finding the benefit of not 
just being able to provide the service but putting intelligence 
into the grid. They can better manage their underlying 
networks, so I would anticipate that we will see considerable 
growth in the BPL deployment as a very viable competitive 
third, fourth, fifth broadband access point into the home.
    Mr. Gonzalez. Yes. And I would join you in that effort 
because I just think in terms of how we provide it, I think the 
different manner or method is important. I have not really seen 
anyone aggressively approach this for whatever reason, and I 
was just kind of surprised.
    Mr. Kneuer. We can share some of that with you.
    Mr. Gonzalez. I appreciate it. I yield back.
    Mr. Markey. Gentleman's time has expired. The gentleman 
from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Mr. Kneuer, it is 
good to have you here. Thanks for visiting with me earlier this 
year. A couple issues. Please don't deploy a grant program 
without interoperability standards. I think that is really the 
basic message that we have here. We have a very successful, 
through FEMA, the Fire Act grant and a lot of it is technology 
and radios and communication devices. Our fear is you have 
heard it. So I would just plead with you, that would be 
foolhardy and would really be frustrating for all of us here, 
so if there is one thing is the interoperability issue.
    Issue two, I always get frustrated when my colleagues 
compare us to countries without size, scope and density 
relations. South Korea is 98,480 square kilometers, with a 
population of 48 million people. Pretty dense. Easy to connect. 
California is 411,048 square kilometers with 33 million people. 
That is a huge, a bigger challenge. And to compare apples and 
oranges and then take shots at you and California is just one 
State in the Union.
    One of the most connected countries in this world is 
Estonia. I haven't checked the population of Estonia. They had 
no infrastructure. They are all cellular, high-speed Internet 
access. They do all their financial transactions. But they are 
there because they leapfrog technology, so in your defense, I 
think we are doing well, and sometimes I think these shots are 
unfortunate.
    I want to go on to the set-top boxes. How many here have 
free over-the-air TV reception in their home? One. I mean, let 
me put it that way. How many are not connected either by direct 
satellite or cable? One, two, three, four. Now, we did this, 
Ranking Member Upton and I did this in--now, we would kind of 
expect to hear all of these wealthy, white collar professionals 
here--we were at a hearing with Bobby Rush on the South Side of 
Chicago, not known to be in this income bracket, on TV violence 
and we were in a school auditorium. We asked that same 
question, I don't know if you asked it, Freddy? There were 400 
and some students. Four hundred students. Freddy, how many 
people raised their hands, saying three out of 400 in inner-
city South Side Chicago, only three were receiving their 
signal----
    Mr. Upton. White Sox fans. And proud they are to be White 
Sox fans.
    Mr. Shimkus. So that is why we got to keep these debates in 
perspective. Real people, real reception of signals, and that 
is why I follow up with this question. Secretary Kneuer, in 
2005 the FCC data estimates that there are 50 million over-the-
air homes and 94 million cable and satellite homes. Over-the-
air homes tend to have two televisions which, by definition, 
are not connected to cable or satellite. Cable and satellite 
homes tend to have one television not connected to their pay 
service. According to broadcasters, 25 percent of over-the-air 
homes and 15 percent of cable or satellite homes will feel they 
need a subsidized box. If you crunch the numbers, that comes 
out to 21.6 million converter boxes. If that is the case, would 
the initial $990 million in the program cover the demand?
    Mr. Kneuer. Yes.
    Mr. Shimkus. OK. I want to end up on, if I do have time? 
And just highlight the .kids issue that Chairman Markey and I 
worked on years ago. It is still up and running. I think that 
shows some success because if it was not financial for NeuStar 
to do that, they had a pull-the-plug provision. However, it is 
not nearly deployed in the way in which the chairman and I 
would have hoped to. NeuStar is now lowering their price. What 
else do you think we can do to get full deployment?
    I lowered my expectations. I now have a 14-year old son, 
and I think our original plan was 13 and under, pretty 
foolhardy. But I tell you, from my 4-year old, who started when 
this program started, and now he is 7, it is still a good way 
for a young child to feel that they are on the Internet and be 
safe. So what can we do to really encourage further deployment? 
And I will pledge whatever thing I can use to use the pulpit to 
help. I do like to put Corporate America and organized labor 
and all these groups that say they want to be helpful and good 
stewards on notice that they are not doing it in this 
provision. So I will let you answer that question.
    Mr. Kneuer. I share your frustration with the progress and 
thank you for your leadership. I know this is something that 
you have been very interested in. You have come to the Commerce 
Department, and we have had forums to talk to folks about this. 
We have been working with NeuStar to lower the prices and to 
make it more of an attractive proposition for content providers 
to get on.
    The Secretary of Commerce sent out a letter to, I don't 
know, I think it was 6,000 media CEOs, something like that and 
the number may be smaller, but it was a bunch, to say this 
exists, it is out there, you ought to participate. I think it 
is the bully pulpit reminding people, as they come in and are 
advocates before us and before the Congress, that this is a 
resource out there and it is important.
    Mr. Shimkus. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Markey. The gentleman's time has expired. Thank you. 
The Chair recognizes the gentlelady from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. Welcome, Mr. Secretary. 
Nice to see you again. Back to interoperability. Along with 
DHS, you are administering a billion dollar interoperability 
grant program, it has been mentioned before, for public safety. 
During the debate on the floor of the House on the 9/11 bill, 
and also when you came to my office, we discussed it earlier 
this year, I raised my concerns that the interoperability 
grants are not solely focused on equipment that enables 
interoperability for voice communications among responders in 
the field, but also IP-based solutions, including grants for 
software, for middleware, for network-based solutions that 
enable the interoperable voice and data communications among 
individuals and organizations. I hope you haven't been asked 
this direct question before, and I apologize for not being here 
earlier to hear all of the questions asked of you; can you tell 
us, with some specificity, how you are shaping these grants?
    Mr. Kneuer. The statute directs us to fund grants for 
communications systems.
    Ms. Eshoo. So it is pretty broad.
    Mr. Kneuer. It is broad enough, and there are certainly 
components of those systems that go beyond the radio frequency 
interface, the radio component.
    Ms. Eshoo. Right.
    Mr. Kneuer. So to the extent that a jurisdiction or a 
locality is pursuing an interim solution that includes an 
Internet based component and that Internet based component has 
software aspects to it, those would be eligible under the 
program.
    Ms. Eshoo. Let me ask it another way. But will you be 
granting any grants that do not fit the description you just 
reiterated?
    Mr. Kneuer. I would expect that the grants will go towards 
a variety of different solutions that reflect the variety of 
the different levels of problems, so there may very well be 
some solutions that come in that include, as part of the 
overall interim solution, a software component or an Internet-
based component or what have you, so I would anticipate that 
there will be grants that fund those sorts of programs. There 
may be others that say we have completed the gap that we have 
with an additional suite of radios.
    Ms. Eshoo. Well, I want to get back to something that Mr. 
Shimkus said--I think it was Mr. Shimkus--that said when these, 
if I heard him correctly, that as these grants go out and they 
are awarded, that they not be focused solely on just the 
equipment part of it. Otherwise, I think that we are not going 
to make the kind of progress that I think a lot of members see 
really must be made, so I keep beating the horse. I think you 
get the picture.
    Mr. Kneuer. Absolutely.
    Ms. Eshoo. But I think the instruments that you have at 
your fingertips really mirror what we are talking about. On 
page 3 in your testimony, you stated that the administration is 
committed to ensuring that the consumers have other options for 
broadband access besides cable and broadband and you also state 
that ``when every mobile phone carrier is also a broadband 
service provider, incumbent providers will be forced to compete 
with lower prices and more innovation.''
    Two of the four national wireless carriers are owned, in 
whole or in part, by the same incumbent providers. The cable 
companies have a joint venture with a third national wireless 
company, and given this cross-platform consolidation, how does 
the administration plan to ensure that the scarce spectrum 
resources are used to achieve your stated goal of a third 
competitive choice for consumers?
    Mr. Kneuer. Well, I think our spectrum policies have been 
focused on getting spectrum into the marketplace so that it can 
be a competitive alternative. While some of the large carriers, 
wireless carriers, are affiliated with landline carriers, they 
compete with unaffiliated carriers. Every wireless carrier is 
facing competition from at least three unaffiliated wireless 
partners.
    They may not be in direct competition with their affiliated 
landline component, but that affiliated landline component is 
certainly facing competition from the unaffiliated wireless 
carriers, from the cable companies, from satellite companies, 
from broadband over power lines.
    I think we are realizing a cross-platform competitive 
broadband environment in this country that is in stark contrast 
to the sort of vertical integration of the broadband platform 
in most of the rest of the world and it absolutely does bring 
increased competition, increased innovation and all of the 
other attendant consumer benefits.
    Ms. Eshoo. Thank you, Mr. Chairman. I yield back.
    Mr. Markey. OK. The gentlelady's time has expired. The 
gentleman from New York, Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman, and good afternoon, 
Mr. Secretary. Thank you for being here. And as someone, with 
my colleagues Mr. Engel and Mr. Upton, who helped to create the 
grant program, let me again underscore as someone who 
represents New York City the importance of interoperability and 
proceeding with the grants, but at the same time I recognize 
there are 50,000 public safety entities and 24,000 public 
safety wireless systems across the country.
     We still have a fragmented system almost 6 years after 9/
11, and I know there have been many attempts over the years to 
create the so-called national standard and always trying to 
balance where it is with respect to standards and technology. 
But the fact remains, do you think there should be or the 
question remains, do you think there should be a universal 
standard or a uniform standard for the entire country?
    Mr. Kneuer. Well, I think standards-based solutions and 
having standards that individual public safety agencies and 
communities can build towards is the very vital part of the 
long range solution. If you look at the SAFECOM continuum on 
how we progress from, sort of, these disparate systems to 
tactical, interoperable communications and in the long-term 
come up with, sort of, completely interoperable communications.
    The challenge, though, as you underscored, with the 50,000 
different regions selecting a single national solution for them 
to pursue based on a Federal dictate, you run the risk of 
having, as an adverse consequence, localities turning off or 
turning in large pieces of existing infrastructure and 
replacing it unnecessarily, so certainly standards-based 
solutions are a key part of the long-term goal.
    Interoperability across the country is expressed in the 
objectives of this program and all the efforts that we are 
undergoing, but you do have to balance that with the 
realization that there are different levels of infrastructure 
and capability in the ground in different areas and that trying 
to adopt a single solution to all of those dozens and hundreds 
of thousands of different problems may not be the most 
effective.
    Mr. Fossella. But nevertheless, are we going to get into a 
potential stalemate in perpetuity? These are just local 
roadways that will never connect. There are some who suggest 
that that is equivalent to building a Federal highway system. 
Everyone has got a little road network in their own urban area, 
whether it is in New York City or the Mississippi River, at 
some point somebody has got to make the decision of either we 
are one country or we are not.
    That if we have a regional catastrophe or a national 
catastrophe, we have the capacity to correspond with each other 
or we don't. And I just get this sense, and in your testimony, 
I think you said you finally have made substantial progress in 
identifying the gaps, which is worthwhile. I think the next 
question is well, how do we ensure that those gaps are closed 
soon before the next catastrophe?
    Mr. Kneuer. That is the express intention of this program, 
is to make, as a condition of the award of the grant awards, 
demonstrate that you have got a plan to fill in those 
identified gaps. And while localities should have the 
flexibility to pursue the solution that meets their particular 
need, the precondition on that flexibility is whatever solution 
they do choose has to enable future and ongoing 
interoperability with neighboring regions and other regions. So 
it may be a different solution, but it is a solution addressing 
the same problem.
    Mr. Fossella. Do you really think that is going to be the 
potential solution? I mean, to what extent does New York City's 
metropolitan area extend? To what extent should New York City, 
that encompasses, say, Long Island and Connecticut and New 
Jersey, where does that responsibility end, and where does a 
small town in western Illinois end? I am just curious if the 
goal is a national interoperable standard or national 
interoperability ability to communicate, wherein does the local 
jurisdiction's responsibility end when attempting to obtain 
this grant?
    Mr. Kneuer. Well, I think New York City is sort of the 
perfect example, that they have got billions of dollars of 
embedded infrastructure. They have been pursuing their own 
interoperability solution. It needs a Federal official in 
operating a grant to say actually, I am going to replace my 
judgment for yours on your interoperability solution, and you 
ought to do it this way. However, in achieving their 
interoperability solution, it is inherent in that solution that 
their network can now communicate with neighboring 
jurisdictions who would respond or a regional jurisdiction or a 
different agency within the same geographic area, so they are 
achieving those solutions.
    Mr. Fossella. OK. My time has expired. Thank you.
    Mr. Markey. The gentleman's time has expired, although I 
thank the gentleman for pursuing that line of questioning. I 
think it is very helpful to us. Chair recognizes the gentleman 
from Washington State, Mr. Inslee.
    Mr. Inslee. Thank you. How many Americans do receive their 
signal over the air now?
    Mr. Kneuer. Exclusively over the air?
    Mr. Inslee. Yes.
    Mr. Kneuer. The estimates are around 15 percent. I have 
probably the best estimates here, but roughly, exclusively over 
the air, 18 to 20 million.
    Mr. Inslee. Eighteen to 20 million. How many public service 
announcements, under your plan, will that 18 to 20 million 
Americans see prior to this transition?
    Mr. Kneuer. Public service announcements paid for by us?
    Mr. Inslee. Yes.
    Mr. Kneuer. I have an estimate. But they will, by all 
reports, be bombarded with this information through the 
television and through other mediums as part of the broader 
industry public education campaign.
    Mr. Inslee. Well, how many by you?
    Mr. Kneuer. I don't necessarily think that buying ad time 
on broadcast television, when the broadcasters are already 
devoting those resources to their own PSAs, would be an 
efficient use of the $5 million. That being said, we are 
working closely with the broadcasters so as they are engaging 
in that campaign and putting public service announcements on 
television, that those announcements will be referencing our 
program. I mean, that is the principal way we would expect to 
leverage this $5 million to a value many times more.
    Mr. Inslee. So you are not buying TV, then?
    Mr. Kneuer. No.
    Mr. Inslee. OK. So do you have any sort of reference point 
of how many PSAs you expect Americans to see?
    Mr. Kneuer. At this point, no.
    Mr. Inslee. Can you give me any estimate at all?
    Mr. Kneuer. No.
    Mr. Inslee. See, now that is a little disturbing, because 
people up here, we run for office, and I can tell you, when 
your neck is on the line you figure out how many times people 
are going to see your message, and it is a little troubling to 
me, if you got 18 or 20 million Americans, that the guy in 
charge of letting Americans know how to do this can't give any 
estimate at all how often people are going to see this message.
    Mr. Kneuer. I would certainly expect that is the level of 
marketing activity and that expertise. We will leverage some of 
that in the acquisition of this program, and as I said, I think 
the industries whose consumers are at stake and the industries 
that are performing this consumer education campaign are the 
most expert industries in the world in how to reach consumers 
and in those sorts of metrics on if you want to be successful 
how many times you reach somebody.
    Mr. Inslee. So as I understand it, you are pretty much 
leaving it up to private entities to decide how much Americans 
get information, is that pretty much what you are telling us?
    Mr. Kneuer. We are going to rely very heavily on the 
impacted industries to perform the education of their 
consumers, yes.
    Mr. Inslee. Just speaking as one person, I think that is 
grossly inadequate to fulfill this responsibility to 18 or 20 
million Americans, and if you think turning off TVs for people 
is not such a big deal, I will forward my calls to you when 
they come. I mean, I would really encourage you to be more 
scrupulous in trying to figure out what a minimum penetration 
level of this message is for those 18 or 20 million and find 
out a way that you can report to us what that is. Just relying 
on the hopes that the private sector is going to be able to do 
this to the right audience and not just the high-profile, high-
income, Lexus-buying audience but everybody who deserves to get 
this message to figure out how to handle this. This is a public 
obligation. We are depending on you to do that, and I am not 
satisfied you are doing it at the moment.
    Mr. Kneuer. Certainly, some of that expertise is what we 
are looking to acquire. I mean, the candid answer is that that 
expertise does not reside within the agency. Contracting for it 
is part of the program and it is included in our request for 
proposals.
    Mr. Inslee. What I would encourage you to do is to set a 
minimal standard of penetration, just like anybody running for 
public office in America from city counsel to mayor to 
President were to do and say we are going to get to that level 
and then figure out how to get there. I don't sense that you 
have done that yet. I think you are working on a wing and a 
prayer and a little too much optimism that this is all going to 
just sort of work out. And I can tell you, if there are only a 
million people who don't know about this and how to solve it, 
we are not going to give them John Shimkus's home phone to deal 
with it. We are going to expect the public government to deal 
with it. So I encourage you to rethink this. On the PSAs, will 
you have access for hearing impaired folks on your PSAs?
    Mr. Kneuer. Yes, that would be my expectation.
    Mr. Inslee. OK. Thank you. I hope you can give us more 
information a little later.
    Mr. Markey. Gentleman's time has expired. The gentleman 
from Washington State has raised many very important questions, 
and to the gentleman from Washington State and to everyone 
else, we are going to have a hearing next Wednesday with the 
industry officials and the consumer groups who are being tasked 
here with the responsibility of communicating, and I think they 
are going to catch quite an earful from the committee members 
and then I think we will be coming back to you again, Mr. 
Kneuer.
     Chair recognizes the gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. I just want to make 
sort of a plug like my colleague from New York mentioned, about 
the interoperability, and we also have a lot of hurricanes and 
tornados in Florida, and one recently ripped through my 
district down in Lady Lake, and so this is an important area 
for us and I guess maybe you have answered this question, but 
have you given thought to the eligibility of satellite 
communications in the grant guidance for NTIA's 
interoperability program?
    Mr. Kneuer. I think, as the events in the Gulf clearly 
demonstrated, that satellite components can be a very critical 
piece of underlying operability, and they can certainly be 
included in part of an interoperability solution, to the 
extent, as I said, a State or locality, in presenting a plan to 
fill in the gaps of their interoperability solution had a 
satellite component as part of that, it would be eligible for 
funding so long as it was enabled and was a component of the 
interoperability solution.
    Mr. Stearns. So that would be a yes?
    Mr. Kneuer. Yes.
    Mr. Stearns. OK. Let me just move to a little bit, talking 
about this box that is going to be sold and the education. As I 
understand it, Berlin has already gone through this transition?
    Mr. Kneuer. To my understanding.
    Mr. Stearns. And have you studied how successful they were?
    Mr. Kneuer. Yes.
    Mr. Stearns. And did they have any problems? I understand 
it is small, but it is a demonstration that we can look to, to 
see how successful it was.
    Mr. Kneuer. Well, the transition of that, anyway, is 
complete.
    Mr. Stearns. It is complete. And what was the set box cost 
for them? Just approximately.
    Mr. Kneuer. I don't recall whether or not they were 
distributed or whether or not they had what the price level was 
on them.
    Mr. Stearns. I mean, I think it would be useful for your 
staff just to----
    Mr. Kneuer. Yes, I think they were distributed to people 
who needed them.
    Mr. Stearns. So they were given free?
    Mr. Kneuer. That is my understanding.
    Mr. Stearns. OK. And in their education program, did they 
start--perhaps you don't know the details, but it would be 
helpful for us, I think, to say here is a demonstration that 
has been successful, they did it for free. Who manufactured the 
box, do you know that?
    Mr. Kneuer. No, I don't know.
    Mr. Stearns. No. In their education program did they do 
mailings or they did television?
    Mr. Kneuer. I can get back to you on the broad strokes of 
what they did in Berlin. The one data point that I think is 
interesting in the Berlin exercise is that there were a very 
large number of set-top boxes that went unclaimed.
    Mr. Stearns. That were not claimed?
    Mr. Kneuer. That were not claimed. Because consumers chose 
a different path to the transition that met their own needs 
without relying on the Government's offer to assist them.
    Mr. Stearns. And why would they not want their set box? 
They bought it through the supplier of the television?
    Mr. Kneuer. I think, just as I would expect in the 
transition's conclusion in this country, consumers have a 
variety of choices on how they wish to affect that transition. 
You can either buy a digital set or a high definition set; you 
can subscribe to a service; you can avail yourself of this 
program and get financial assistance for a baseline 
functionality set-top box. You may go to the marketplace and 
find a set-top box that includes other components, a DVR or a 
DVD or something like that, so consumers are going to have a 
variety of options on how they affect this transition's 
conclusion that meets their particular needs. And I would 
suspect that the circumstance was similar in Berlin and that a 
large number of consumers chose a different path rather than 
the one that the Government was offering as a means of 
assistance.
    Mr. Stearns. I think the point I am trying to go to is just 
what you just made, is it the possibility, some people have 
complained this $900 plus million is not going to be enough 
money but just as you pointed out, in Berlin, that if they are 
educated early enough, perhaps the consumers will make a 
selection where they won't need the set box and just like in 
Germany, not all of them were used, so through this educational 
process the consumer will make a decision, and he or she might 
buy a new high definition and say by gosh, I am not going to 
get the box, and there we go.
    And somehow, I am just hopeful that the market and this 
whole idea of education will ultimately provide the consumer 
with a choice and he or she will make that choice and not rely 
upon the Government and then we might, in fact, not even need 
$990 plus million. That is my point.
    Mr. Kneuer. I think there are compelling consumer reasons 
to make the complete transition to digital, to get a high 
definition----
    Mr. Stearns. We have seen it in Germany.
    Mr. Kneuer. We are selling tens of million of digital and 
high definition television sets every year. Tens of millions of 
American households have already completed this transition and 
they are going to continue to do it over the next 2 years. That 
being said, this program serves as an option for those 
households that either require or wish the financial 
assistance, but if you look at the take rates of other 
transition options and you take the total number of sets that 
are out there and the likelihood that the take rate is low 
enough, that the billion dollars is sufficient, I think, is 
most of the current market data would suggest that the billion 
dollars----
    Mr. Stearns. Mr. Chairman, I ask unanimous consent just for 
15 seconds to ask him one question.
    Mr. Markey. Very quickly, please.
    Mr. Stearns. Thank you. Are there any other countries that 
have transitioned successfully, like the city of Berlin, either 
large cities or not?
    Mr. Kneuer. I don't know of any countries that have 
completed the transition.
    Mr. Stearns. Large cities?
    Mr. Kneuer. Berlin is the only one.
    Mr. Stearns. The only one. Thank you, Mr. Chairman.
    Mr. Markey. Gentleman's time has expired. I think we should 
note that Berlin spent $1 million on one city. The program we 
have for America is $5 million for the whole country. In Berlin 
they sent a mailer to every home and put ads on all the mass 
transit, so the scale here, $1 million for one city, $5 million 
for our whole country of 300 million, it is just going to 
require us to continue to focus on it.
    Chair recognizes the gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. Apologize to everyone. 
I have been running back and forth. We have an oversight 
hearing going on downstairs. Mr. Kneuer, thank you for being 
here today.
    I am concerned about the Memorandum of Understanding 
between your agency and the Office of Grants and Training with 
the U.S. Department of Homeland Security, that it will not 
adequately advance innovative ideas. And the administration's 
recent budget proposal just compounds my concerns. The budget, 
the way I understand it, reads or uses the NTIA funding to 
offset the administration's proposed $1 billion cuts in public 
safety grants.
    So the administration's budget is completely contrary to 
Congress and Congress's intent for providing a new funding and 
new approach to the old issue of interoperability. We have been 
talking about interoperability ever since the Air Florida crash 
in 1982. So with the budget process here and this Memorandum of 
Understanding, I am fearful that the twin goals, more money and 
new ideas, interoperability will not work or will not become a 
reality.
    So Mr. Kneuer, why do you think Congress gave your agency 
the grant program to administer and not the Department of 
Homeland Security right off the bat?
    Mr. Kneuer. I would assume it was in some recognition of 
the communications expertise that we have within the Department 
of Commerce, but I would also point out----
    Mr. Stupak. So then why would you go to this memorandum? If 
you have the expertise, why would you shift it to the 
Department of Homeland Security?
    Mr. Kneuer. Because the express guidance included in the 
management report was that we would work closely with the 
Department of Homeland Security on a number of areas. The 
Memorandum of Understanding with the Department of Homeland 
Security is largely a procurement of services. The ultimate 
decision making remains within NTIA, in the Department of 
Commerce. It is an acquisition of their grant making apparatus. 
It would be grossly inefficient for us to recreate a grant 
making apparatus for a period to run and expire.
    Mr. Stupak. Well, then what is your vision and goal, then, 
of the program, then, if you are just going to use them because 
they know how to do grant programs? So what is your vision, 
NTIA's vision, of how we are going to do this program here? It 
is $1 billion.
    Mr. Kneuer. Our vision would be to give localities, States, 
the ability to leverage the most effective and efficient 
solutions possible to fill in the identified gaps in the 
scorecards that have been identified and the State plans that 
are going to be completed.
    Mr. Stupak. Where are the scorecards coming from? Have they 
been completed? Are they back to your agency?
    Mr. Kneuer. These scorecards were completed and have been 
submitted to the Department of Homeland Security; we have 
reviewed them, as well.
    Mr. Stupak. So where is the biggest gap in interoperability 
based on these scorecards?
    Mr. Kneuer. The scorecards identify gaps across the SAFECOM 
continuum, which includes governance and other issues that 
aren't explicitly related to the SAFECOM link. This program, 
however, is focused by the statute on the communications 
functionality.
    Mr. Stupak. OK. Will there be matching fund requirements?
    Mr. Kneuer. There is a 20 percent matching requirement.
    Mr. Stupak. Will States like Michigan that have gone ahead 
and put forth, basically, statewide interoperability, will 
Michigan still be eligible to access this grant program even 
though they, the taxpayers, have gone ahead and tried to put 
forth interoperability in Michigan?
    Mr. Kneuer. To the extent there are still identified gaps 
in the URASI regions and in the statewide plan that is 
submitted, yes, they would be eligible.
    Mr. Stupak. All right.
    Mr. Kneuer. And I would also point out that those 
contributions that the States are making, those contributions 
should satisfy the matching requirement.
    Mr. Stupak. All right. In this memorandum it says NTIA, and 
I am talking about in cooperation with DHS, I am on page 4 of 
it in case you have it with you, identifies specific meaningful 
and obtainable investment goals for improving communications 
interoperability through this grant program. Could you explain 
that a little bit further, and how are you trying to meet that 
goal? It is on page 4, subsection (b).
    Mr. Kneuer. I don't want to burn up more of your time while 
they are gathering the MOU so I have it in front of me, but if 
we can get to other questions.
    Mr. Stupak. All right. Well, while they doing that, let me 
ask you this. Are you familiar with CoCo Communications that is 
going to be on the second panel?
    Mr. Kneuer. Yes, absolutely. Mark Tucker serves on my 
Federal Advisory Committee on spectrum.
    Mr. Stupak. What do you think of service-based software 
products such as theirs?
    Mr. Kneuer. I think, as I said, with a lot of these 
solutions there are a host of new technologies that can solve 
this problem and that is why we want to make sure that the 
public safety community is aware of these efficient and 
effective solutions and that they have the eligibility to take 
advantage of them, but at the same time we need to be mindful 
and vigilant that we are making sure they are deploying 
effective, proven technology. I don't want firemen with a beta 
system responding to an incident. They need to know it is going 
to work.
    Mr. Stupak. Well, will grants be available to pay for these 
service based interoperable solutions today?
    Mr. Kneuer. We are finalizing our grant--my expectation 
would be the report language tells us to do this in a way that 
is not inconsistent with the ongoing SAFECOM programs, but I 
want to be a complement to that and make sure that we go beyond 
that and look at the most effective, efficient solution, so I 
would certainly expect to try and meet those needs.
    Mr. Stupak. So your answer is yes, then?
    Mr. Kneuer. Yes.
    Mr. Stupak. Thank you. Thank you, Mr. Chairman, for your 
time.
    Mr. Kneuer. And I am sorry we didn't have this document. I 
am happy to follow up on the MOU.
    Mr. Stupak. Thanks.
    Mr. Markey. Gentleman's time has expired. I may just ask 
you one final question. Why were the minority media ownership 
reports that the NTIA used to do stopped?
    Mr. Kneuer. I think it was largely a recognition that that 
data is really the FCC's data and that is where it resides. 
What we have recently agreed to do with the Commission, the 
last report that we did sort of became the authoritative 
baseline of what the level of minority ownership looked like at 
that snapshot in time. We have now worked with the FCC 
collaboratively to say OK, let us use this as a baseline, and 
now you can go to all of the changes in control, since the last 
one, and fill in the gaps so that there will now be a lasting 
living document that can be updated. Every time you have a 
change in control, you just update the existing database and 
you don't need to periodically start from scratch and create a 
new study.
    Mr. Markey. OK. Well, we are going to be asking you to 
start up some kind of a program to make sure that we have 
accurate data working with the FCC that is usable by the 
committee so that we can have some idea of what the minority 
ownership is.
    Mr. Kneuer. And that is the objective we are trying to meet 
with that collaborative effort.
    Mr. Markey. We thank you, Mr. Kneuer, and we expect to be 
having you back on a frequent basis. You can obviously see the 
intensity of interest in your agency and the issues that you 
have responsibility for. With the thanks of the committee, you 
are now excused.
    Mr. Kneuer. Thank you.
    Mr. Markey. Thank you. Now we will move to the second 
panel, and the second panel is a very distinguished one. It 
includes Harlin McEwen, who has served in law enforcement for 
over 49 years. He is the chairman of the International 
Association of Police Chiefs Communications and 
Telecommunications Committee and serves as vice chair of the 
National Public Safety Telecommunications Council; Morgan 
O'Brien, who is the co-founder and chairman of Cyren Call 
Communications, which we will hear much more about shortly; Dr. 
George Rittenhouse, who has a Ph.D. in physics and a Ph.D. in 
electrical engineering and computer science. He was one of the 
driving forces behind the creation of the Wireless Emergency 
Response Team; and Mark Tucker, who is a lifelong technology 
entrepreneur, who started the first of four companies at age 
18, focusing on developing software for the distribution 
industry. After analyzing the communications problems 
encountered by first responders on 9/11, Mr. Tucker launched 
CoCo Communications, which uses Internet protocol solutions to 
create interoperability between legacy systems and forward-
looking systems. So we thank each of our witnesses on this 
panel for being willing to participate.
    Mr. Rittenhouse, we are going to recognize you first for 5 
minutes. If, Mr. O'Brien, you could pass that microphone down 
to Mr. Rittenhouse and Mr. Rittenhouse, if you could make sure 
that that microphone is on, we would appreciate it. You are now 
recognized for 5 minutes.

    STATEMENT OF GEORGE RITTENHOUSE, SENIOR VICE PRESIDENT, 
  TECHNOLOGY INTEGRATION, BELL LABS, ALCATEL-LUCENT BELL LABS

    Mr. Rittenhouse. Good morning, Chairman Dingell, Chairman 
Markey, Ranking Member Barton, Ranking Member Upton and members 
of the subcommittee. My name is George Rittenhouse. I am vice 
president of technology integration for Bell Laboratories at 
Alcatel-Lucent, one of the world's largest suppliers of 
telecommunications and networking infrastructure. It is a 
pleasure to be here today and talk about a critical issue for 
our public safety community, namely interoperability.
    We appreciate the efforts of the chairman and this 
committee to ensure that the 700 MHz commercial auction 
proceeds as quickly as possible. We also appreciate the steps 
the FCC has taken in reviewing the utilization of the upper 700 
MHz band and ensuring its timely availability through the 
auction process. I have a brief opening statement, and then I 
look forward to answering any questions you may have.
    Prompt deployment of a national interoperable mobile 
communications capability is essential for the public safety 
community to respond effectively to today's emergencies. This 
capability must include seamless interoperability across 
multiple jurisdictions and among all types of first responders, 
including police, fire, medical personnel and others and 
support advanced high-bandwidth data applications. 
Interoperability must also be accomplished cost effectively and 
use the public safety spectrum efficiently.
    The deployment of an interoperable broadband network shared 
by multiple public safety agencies in the public safety 700 MHz 
band will achieve each of these objectives. It is important to 
note that such a network is already being successfully deployed 
right here in the National Capital Region, across 18 
jurisdictions in Maryland, Virginia and Washington, DC. NCR is 
implementing a regional broadband wireless network in the 700 
MHz public safety band.
    These efforts demonstrate that it is possible, through the 
deployment of a single shared regional network, for multiple 
public safety agencies across multiple jurisdictions to achieve 
cost-effective broadband interoperability in a spectrally 
efficient manner.
    Let me spend the next few minutes discussing three key 
ingredients to making this happen. Using the right spectrum, 
employing the right technologies and centralizing what are now 
disparate networks. The 700 MHz spectrum is ideal for this 
deployment. It is already allocated for safety use, thereby 
avoiding the need for lengthy regulatory proceedings. After the 
broadcast television licenses expire in February 2009, it will 
also be unused. As a result, the new network infrastructure can 
be deployed across the bandwidth without disrupting existing 
users and without requiring public safety officials to 
disregard what they have already put in place.
    Now let me turn to the technology piece. By leveraging the 
economies of scale and the R&D investments of the massive 
commercial market, broadband technologies are extremely cost-
effective in urban, suburban and rural deployments. Commercial 
broadband is uniquely suited to provide first responders with 
technically superior high-bandwidth data capabilities that are 
both interoperable and highly cost-efficient.
    Compared with wideband solutions and other older 
technologies, broadband offers spectral efficiencies that 
approach the absolute theoretical limit, producing superior 
data rates, a longer range and higher user throughputs. As a 
result, broadband can carry more than 10 times the data than a 
wideband network with the same bandwidth. Quite simply, this 
enables more first responders to send and receive much more 
data than their current spectrum. Thus, with commercial 
broadband, public safety will benefit from decades of 
innovation, as well as substantial economies of scale.
    Finally, regarding the network itself, this committee and 
our Nation's public safety community understand that as a 
Nation, we need to shift from the prevailing model of 
regionally coordinated, individually owned and operated public 
safety networks to networks shared across multiple 
jurisdictions. While the decentralized approach provides 
flexibility to individual agencies, this flexibility has had 
the unintended consequence of fragmenting the use of public 
safety spectrum and creates a patchwork of incompatible systems 
that has restrained the development of communications across 
the regions and across users.
    The bottom line is that our Nation's first responders 
deserve immediate access to interoperable broadband 
communications capability. The best way to accomplish this goal 
is by ensuring that the public safety community has access to 
and the ability to deploy broadband technologies that are 
already available in the commercial marketplace. The FCC's 
recent waiver allowing NCR to bring broadband communications 
capabilities to our Nation's first responders and the public 
safety 700 MHz band is an important and productive step towards 
achieving this goal.
    We would welcome members of this committee to see for 
themselves what we can accomplish today with commercially off-
the-shelf available technology. I would like to extend, also, 
an invitation to visit Bell Laboratories and witness some of 
the advanced research behind this technology. With that, I am 
happy to answer any questions you may have.
    [The prepared statement of Mr. Rittenhouse follows:]

                    Testimony of George Rittenhouse,

     Good morning Chairman Dingell, Chairman Markey, Ranking 
Member Barton, Ranking Member Upton and Members of the 
Subcommittee. My name is George Rittenhouse. I am the vice 
president of Technology Integration for Bell Laboratories at 
Alcatel-Lucent--one of the world's largest suppliers of 
telecommunications and networking infrastructure. Thank you for 
the opportunity to be here with you today to speak about this 
issue, which is so critical to the support of our public safety 
community. I would like to thank the Chairman and this 
committee for your efforts to ensure the 700 MHz commercial 
auction proceeds as expeditiously as possible, as well as the 
FCC for the steps taken to date in reviewing the utilization of 
the upper 700 MHz band. As you may know, Bell Labs has a rich 
background in wireless technologies--having first invented the 
concept of cellular networks back in 1947, and continuing 
through today with a leading edge research and innovation 
program in all major areas of wireless networking. I have a 
brief opening statement, and then I look forward to answering 
any questions you may have.
     Prompt deployment of a national interoperable mobile 
communications capability is essential to the ability of public 
safety agencies to respond effectively to emergencies. This 
capability must include seamless interoperability across 
multiple jurisdictions and among various types of first 
responders (e.g., police, firefighters, emergency medical 
personnel and others) and support advanced and high-bandwidth 
data applications. Further, such interoperability must be 
accomplished cost effectively while using the public-safety 
spectrum in an efficient manner. The deployment of an 
interoperable broadband network shared by multiple public 
safety agencies in the Public Safety 700 MHz band will achieve 
all of these objectives.
     Such a shared network is being successfully deployed in 
the National Capital Region (NCR), which incorporates 18 
different jurisdictions in Maryland, Virginia, and Washington, 
D.C. NCR is in the process of implementing a regional broadband 
wireless network in the Public Safety 700 MHz band. These 
efforts demonstrate that it is possible, through the deployment 
of a single shared regional network, for multiple public safety 
agencies across multiple jurisdictions to achieve cost-
effective broadband interoperability in a spectrally efficient 
manner. Let me spend the next few minutes discussing three key 
ingredients to making this happen: using the right spectrum, 
employing the right technologies and centralizing what are now 
disparate networks.

     I. The Public Safety 700 MHz Band Is Ideally Suited to 
Accommodate Interoperable Broadband Public Safety 
Communications on a National Basis

     As the committee is aware, the Public Safety 700 MHz band 
is ideally suited to support interoperable broadband 
communications. The spectrum already is allocated for public 
safety use, thereby avoiding the need for lengthy regulatory 
proceedings to identify and allocate appropriate spectrum 
resources. Further, after the broadcast television licenses 
expire in February 2009, it will be unused. As a result, new 
network infrastructure can be deployed across the bandwidth 
without disrupting existing incumbent users of the spectrum and 
without requiring public safety officials to discard that which 
they have already put in place. Moreover, 700 MHz spectrum 
offers favorable radio frequency propagation characteristics 
that enable enhanced coverage over large geographic areas as 
well as superior building penetration. This results in 
substantially lower deployment costs for wide-area deployments 
when compared with higher frequency public safety spectrum 
allocations, such as the 4.9 GHz band. In addition, the close 
proximity of the Public Safety 700 MHz band to commercial 
spectrum bands on which broadband technologies already are, or 
soon will be, deployed will facilitate the sharing of 
commercial network infrastructure and technology between first 
responders and the private sector, which has the potential to 
substantially reduce the public safety community's deployment 
costs.

     II. Broadband Technologies Offer Superior Performance at a 
Lower Cost and Therefore Should be Adopted by the Public Safety 
Community for Nationwide Interoperability

     Now let me turn to the technology piece of the equation. 
Most importantly, by leveraging the economies of scale and 
research and development expenditures of the massive commercial 
wireless market, broadband technologies are extremely cost 
effective in urban, suburban and rural deployments. Commercial 
broadband technologies are uniquely suited to provide first 
responders with technically superior high-bandwidth data 
capabilities that are both interoperable and highly cost 
efficient. Compared with wideband solutions and other older 
data technologies that have been considered by the public 
safety community for use in the 700 MHz band, broadband offers 
spectral efficiencies that approach the theoretical limit, 
superior data rates, long range and higher user throughputs. In 
addition, all commercial broadband technologies are inherently 
designed to offer enhanced voice and data interoperability, as 
well as backward compatibility across prior generations of 
equipment.
     Increased Spectral Efficiencies. Broadband technology 
allows first responders to make much more efficient use of 
their existing spectrum. Specifically, broadband technologies 
enable all available channels to be used in every cell 
throughout a broadband network, i.e., frequency reuse of one, 
where the same radio frequency channel is reused across an 
entire network. As a result, a broadband network can carry more 
than ten times more data than a wideband network with the same 
bandwidth, thus allowing more simultaneous users to send and 
receive more data. Thus, broadband is ideally suited to 
accommodate the large number of first responders that are 
likely to respond to a major catastrophe. As a result of 
broadband's higher aggregate capacity, more data-intensive 
applications can be accessed by each first responder and a 
larger number of users can be supported in a coverage area than 
is possible with other wide area public safety wireless 
technologies. Moreover, the single-carrier frequency reuse 
enabled by third-generation broadband technologies eliminates 
the need for detailed frequency coordination between local, 
state, and regional jurisdictions.
     Higher Data Rates and Throughputs. Broadband technologies 
also offer the high data rates required to support the 
advanced, data-intensive applications required by today's first 
responders. All current commercial broadband technologies offer 
reliable data rates in excess of 500 kbps. These data rates far 
exceed the capabilities of currently deployed public safety 
communications systems and are superior to other data 
technologies under consideration by first responders. Further, 
given sufficient spectrum resources, much higher data rates can 
be supported by the most recent generation of broadband 
technologies as new higher-bandwidth advanced applications are 
developed.
     Turn-Key Interoperability. Seamless interoperability 
across both geographic deployments and multiple generations of 
technology are hallmarks of commercial broadband technologies. 
In fact, such capabilities are demanded by the commercial 
wireless market. Accordingly, first responders will be able to 
travel anywhere in the country with confidence that their 
communications equipment will be fully compatible with the 
networks of other jurisdictions. In addition, because 
commercial broadband technologies provide a high degree of 
backward compatibility across prior generations of equipment, 
public safety agencies will be able to upgrade their 
communications equipment without stranding previously deployed 
equipment, disrupting existing users, or reducing overall 
interoperability. Further, broadband technologies provide 
native support of packet-switched Internet Protocol (IP) 
technologies and hence are interoperable with other IP-based 
communications technologies.
     Leveraging Commercial Markets to Reduce Costs. Adoption of 
commercial broadband technology will enable the public safety 
community to benefit from the decades of innovation funded by 
the private sector, as well as the substantial economies of 
scale available to the commercial markets. Driven by the 
competitive need to deploy new, revenue-generating services, 
commercial wireless providers and their technology vendors 
continually push the cutting edge of wireless technology. By 
adopting commercial broadband technologies, first responders 
can leverage the private sector's research and development 
expenditures, thereby spreading the cost of innovation over a 
user base that is orders of magnitude larger than the public 
safety community standing alone. Not only can first responders 
leverage what commercial providers have developed to date, but 
they can continue to benefit from the ongoing technology 
improvements in the fiercely competitive commercial space by 
aligning themselves with commercial technologies. Also, the 
standardization required by commercial wireless providers 
results in massive economies of scale, which can dramatically 
reduce the cost of network infrastructure and each of the 
individual components that comprise user devices. Such 
continually decreasing costs have transformed commercial 
wireless service from a luxury item affordable by very few in 
the 1980s to a commodity enjoyed today by over 230 million 
American consumers. A substantial portion of these economies of 
scale will benefit the public safety community if commercial 
broadband technologies are adopted by first responders, thereby 
providing the greatest benefit to the American people for such 
efforts as search-and-rescue.

     III. The Public Safety Community Should Shift From the 
Prevailing Model of Regionally Coordinated, Individually Owned 
and Operated Public Safety Networks To Networks Shared Across 
Multiple Jurisdictions

     This committee understands, as do those in the public 
safety community, that as a nation we need to shift from the 
prevailing model of regionally coordinated, individually owned 
and operated public safety networks to networks shared across 
multiple jurisdictions. To date, first responder networks 
generally have been deployed and operated at the local level 
using a ``stove pipe'' model in which each local public safety 
entity manages its individual network and pool of frequencies. 
Such a decentralized approach does provide flexibility to 
individual agencies. However, this flexibility has had 
unintended negative consequences. Most notably, fragmented use 
of public safety spectrum and a patchwork of incompatible 
systems has restrained the development of interoperable 
communications across geographic regions and among various 
agencies. Further, it has resulted in inefficient use of 
spectrum. Accordingly, a shift to public safety networks shared 
across jurisdictions is necessary to promote interoperability.
     Our Nation's first responders deserve immediate access to 
interoperable broadband communications capabilities. The best 
way to accomplish this goal is by ensuring that the public 
safety community has access to, and the ability to deploy, 
broadband technologies already available in the commercial 
marketplace. Such technologies offer a turn-key solution to the 
Nation's ongoing interoperability challenges, while also 
providing the public safety community with the ability to 
support the most advanced communications applications, i.e., 
greater spectral efficiencies, higher data rates, and higher 
throughputs. Further, by deploying shared networks using 
commercial broadband technologies, public safety can make the 
most efficient use of its limited financial resources. Such 
shared broadband networks can enable the public safety 
community to move from today's disparate and disconnected 
communications capabilities to an advanced, fully interoperable 
system seamlessly accessible by numerous agencies and across 
multiple jurisdictions nationwide. The FCC's recent waiver 
allowing the NCR to bring broadband communications capabilities 
to our Nation's first responders in the Public Safety 700 MHz 
band is an important and productive step towards achieving this 
objective.
     Thank you for your time and attention. I appreciate the 
opportunity to share with you the work that Alcatel-Lucent and 
our partners are doing to secure the National Capitol Region. 
Additionally, I would like to invite all Members of this 
committee to come and kick the tires to see what we can 
accomplish today with commercially available off-the-shelf 
technology. With that, I am happy to answer any questions you 
might have.
                              ----------                              

    Mr. Markey. Thank you, Mr. Rittenhouse, very much. Next we 
are going to hear from, again, Mr. Harlin McEwen, who is the 
vice chairman of the National Public Safety Telecommunications 
Council. Welcome, sir.

  STATEMENT OF HARLIN MCEWEN, VICE CHAIRMAN, NATIONAL PUBLIC 
               SAFETY TELECOMMUNICATIONS COUNCIL

    Mr. McEwen. Thank you, Mr. Chairman and distinguished 
members of the committee for the opportunity to appear before 
you today and to talk to you about a one-time opportunity to 
dramatically improve public safety communications. I am nursing 
a cold, so I am a little gruff. I am the retired police chief 
of the city of Ithaca, New York, and I am also retired as a 
Deputy Assistant Director of the FBI in Washington, DC. I serve 
as the chairman of the Communications and Technology Committee 
of the International Association of Chiefs of Police, a 
position I have held for more than 28 years.
    I also serve as the communications advisor for the Major 
Cities Police Chiefs, the National Sheriffs', the Major County 
Sheriffs' and today I am also speaking on behalf of the 
Association of Public Safety Communications Officials and the 
National Public Safety Telecommunications Council.
    I am pleased to have the chance to discuss with this 
subcommittee an exciting new opportunity for Congress to take 
steps that will pave the way to reducing the dependence on 
local and Federal tax revenues to maintain modern public safety 
communications systems. That is a proposal for a 700 MHz 
nationwide public safety broadband network. This proposed 
network can become a reality only if Congress authorizes 
creation of a public/private partnership controlled by the 
public safety community to hold a nationwide license for 30 MHz 
of spectrum in the upper 700 MHz band and to further authorize 
public safety to deploy this network pursuant to a public 
sector/private sector partnership model.
    The wireless voice systems that public safety personnel use 
today are among the most important tools they have to do their 
job in a safe and efficient manner. However, these systems 
have, in many cases, been under-funded, poorly maintained and 
generally not refreshed. As we look to the long-term future, we 
need to look at new and better ways to improve public safety 
communications. The implementation of a nationwide public 
safety broadband network can be the beginning of the end to the 
problem of public safety interoperability.
    We have been asking for funding support for years to help 
us upgrade and replace mission critical land mobile voice 
systems that are built by different manufacturers, are of 
different vintages and are generally incompatible, and in many 
cases, not compatible, with the P25 standards, which are the 
only recognized national digital standards for land mobile 
public safety communications interoperability.
    Those who argue that public safety already has enough radio 
spectrum to meet current and projected mobile requirements are 
purposely ignoring the facts concerning public safety spectrum 
allocations and first responder communications requirements. 
The facts on spectrum allocations are that public safety has 47 
MHz of spectrum that is usable for wide area networks, while 
the commercial allocations for wireless communications add up 
to 528 MHz, an amount that is more than 10 times that for 
public safety.
    In regard to the Ninth Notice of Proposed Rulemaking 
recently issued by the Federal Communications Commission, we 
have many concerns about the concepts set forth in that 
proposal. That proposal suggests that a nationwide broadband 
network could be built using the 12 MHz of spectrum currently 
allocated for local licensing of public safety wideband 
systems. This would take away from local licensing control the 
spectrum long promised for use by local agencies.
    In addition, we believe the proposal is seriously flawed by 
failing to acknowledge the need to have enough spectrum to 
attract investors to participate in the public/private 
partnership where private funds would be invested to build such 
a nationwide network.
    I have dedicated most of my professional career to the 
advancement of public safety communications, and from that 
perspective I believe this Congress has an extraordinary time 
sensitive opportunity. Approval of the Public Safety Broadband 
Trust and a public/private sector partnership will catapult 
public safety to its rightful place in the forefront of 
communications capability, while at the same time delivering 
broadband service to communities, including the rural parts of 
America that continue to be bypassed by the commercial 
telecommunications services.
    I hope you will share my belief that this is an opportunity 
that must be seized for the benefit of the entire American 
public and take quick action to enable it to happen. Thank you.
    [The prepared statement of Mr. McEwen follows:]
    [GRAPHIC] [TIFF OMITTED] 39839.018
    
    [GRAPHIC] [TIFF OMITTED] 39839.019
    
    [GRAPHIC] [TIFF OMITTED] 39839.020
    
    [GRAPHIC] [TIFF OMITTED] 39839.021
    
    [GRAPHIC] [TIFF OMITTED] 39839.022
    
    [GRAPHIC] [TIFF OMITTED] 39839.023
    
    [GRAPHIC] [TIFF OMITTED] 39839.024
    
    [GRAPHIC] [TIFF OMITTED] 39839.025
    
    [GRAPHIC] [TIFF OMITTED] 39839.026
    
    Mr. Markey. Thank you very much, Mr. McEwen. Next we are 
going to hear from Morgan O'Brien, who is the chairman of Cyren 
Call Communications Corporation. Welcome, Mr. O'Brien.

       STATEMENT OF MORGAN O'BRIEN, CHAIRMAN, CYREN CALL 
                   COMMUNICATIONS CORPORATION

    Mr. O'Brien. Thank you. Good morning, Chairman Markey, 
Ranking Member Upton and members of the subcommittee. My name 
is Morgan O'Brien, and prior to forming Cyren Call last year, 
and Cyren Call is a combination of professionals from the 
wireless industry and from the public safety community, prior 
to that I was the co-founder of Nextel Communications.
    I am here today to ask for your commitment to the creation 
of a 21st century state of the art broadband network for the 
first responder community across America, and here is why. 
Someone here in this room will need public safety to save their 
life one day, and possibly someone here in this room already 
owes their life or knows someone who owes their life to a first 
responder. And tragically, we probably all know someone who 
didn't make it, despite the valiant efforts of a policeman, a 
firefighter, a paramedic or some other emergency responder.
    After having consulted with public safety for many years 
and listening to what they need, last April Cyren Call 
submitted a proposal to the FCC to create a nationwide network 
for public safety with heavy emphasis on providing a network 
that would put public safety in control, in the driver's seat; 
creating a funding mechanism to build and maintain that network 
and giving first responders not only a state of the art 
broadband communications network but a network that is based on 
a platform that would evolve to support future technological 
breakthroughs in telecommunications. In plain English, a system 
that ensures that public safety and first responders have all 
that they need when they need it.
    The debate on the matter of public safety communications 
has been vigorous, and I think that is saying the least, over 
the last couple of months. But if we step back for a moment, I 
would like to draw your attention to a critical point. Among 
nearly all parties who have voiced an opinion of this subject, 
there is now broad consensus on the solution for public safety, 
and that collective wisdom, from a number of voices, agrees 
that (1) public safety needs must come first; (2) public safety 
must have a network that meets their communications 
requirements; (3) there needs to be one national licensee of 
that spectrum and that any solution must include collaboration 
between the public and private sectors.
    For us it is truly amazing to have seen this evolution of 
thought and how the public safety community has united around 
this broad consensus. However, as you undoubtedly know, there 
are important points that have not been settled which you, as 
Members of Congress, must come to understand, as well. There is 
no way to guarantee that this network will be built according 
to the needs of public safety unless public safety is placed in 
a position of ultimate authority over the network. And the only 
meaningful way that this can happen is if public safety is made 
the licensee of the spectrum assets.
    In addition, unless Congress is willing to pay for the 
construction of this network, the construction of the network, 
its maintenance and its evolution, and that will cost tens of 
billions of dollars; unless Congress is willing to pay for 
that, then I suggest you must include, in your deliberations, 
considerations that exceed providing just the spectrum. This 
matter is about spectrum and money; the money to pay for the 
network that public safety needs. And we believe the Public 
Safety Broadband Trust Proposal, which is complex and is laid 
out in detail in our testimony, addresses both of these 
important issues, the spectrum and the money, and if you don't 
have both, you don't have a solution.
    Let me just take the last moment of my time and make the 
following point about tense. In the past tense, lives have been 
lost. Unqualified truth, lives have been lost. It is 
unanimously believed. Lives have been lost because of failures 
of public safety communications systems. Past tense, we can't 
escape it. Present tense, today as we sit here, throughout the 
country, public safety and the public that they are sworn to 
protect are at risk because these systems, despite our 
knowledge of the history of failures, continue to fail and 
continue to be far less than technology can provide today.
    The future. The future is literally in the hands of this 
committee. This committee has a one time only opportunity to 
solve this problem. And don't listen to me. My voice is 
unimportant. The voice to listen to is public safety, which 
has, in an amazing way, formed a consensus behind this proposal 
and in a way that I have never seen. Chief McEwen and the other 
leadership of public safety has endorsed this proposal, this 
solution. I thank you.
    [The prepared statement of Mr. O'Brien follows:]
    [GRAPHIC] [TIFF OMITTED] 39839.027
    
    [GRAPHIC] [TIFF OMITTED] 39839.028
    
    [GRAPHIC] [TIFF OMITTED] 39839.029
    
    [GRAPHIC] [TIFF OMITTED] 39839.030
    
    [GRAPHIC] [TIFF OMITTED] 39839.031
    
    [GRAPHIC] [TIFF OMITTED] 39839.032
    
    [GRAPHIC] [TIFF OMITTED] 39839.033
    
    [GRAPHIC] [TIFF OMITTED] 39839.034
    
    [GRAPHIC] [TIFF OMITTED] 39839.035
    
    [GRAPHIC] [TIFF OMITTED] 39839.036
    
    [GRAPHIC] [TIFF OMITTED] 39839.037
    
    [GRAPHIC] [TIFF OMITTED] 39839.038
    
    [GRAPHIC] [TIFF OMITTED] 39839.039
    
    [GRAPHIC] [TIFF OMITTED] 39839.040
    
    [GRAPHIC] [TIFF OMITTED] 39839.041
    
    [GRAPHIC] [TIFF OMITTED] 39839.042
    
    [GRAPHIC] [TIFF OMITTED] 39839.043
    
    [GRAPHIC] [TIFF OMITTED] 39839.044
    
    [GRAPHIC] [TIFF OMITTED] 39839.045
    
    Mr. Markey. Thank you, Mr. O'Brien, very much. Our next 
witness is Mr. Steve Devine. He is patrol frequency coordinator 
for the Missouri State Highway Patrol and the Communications 
Division, and he is chair of the National Association of 
Regional Planning Committees. Welcome, sir. Whenever you are 
ready, please begin.

   STATEMENT OF STEVE DEVINE, PATROL FREQUENCY COORDINATOR, 
  MISSOURI STATE HIGHWAY PATROL COMMUNICATIONS DIVISIONS AND 
    CHAIR OF THE NATIONAL ASSOCIATION OF REGIONAL PLANNING 
        COMMITTEES HIGHWAY PATROL, GENERAL HEADQUARTERS.

    Mr. Devine. Good morning, Chairman Markey, Ranking Member 
Upton and members of the committee. Thank you for providing me 
the opportunity to share my thoughts today on the important 
topic of communications interoperability and how important it 
is to our Nation's first responders. I have been employed by 
the Missouri State Highway Patrol in their Communications 
Division for over 21 years and serve as their patrol frequency 
coordinator. My main duty, at the State level, is to support 
the communications needs of Missouri's first responders, 
coordinate their use of radio spectrum and promote the cause of 
effective spectrum management and regional planning throughout 
the State.
    Missouri, like many other States, has diverse public safety 
communications needs due to sparsely populated rural areas and 
heavily populated urban metropolitan areas. It is from this 
experience that I hope to convey to you some of the reasons 
public safety interoperability is so difficult to achieve, why 
we are where we are today with regard to interoperability and 
immediate cost-effective steps that can be taken to further 
this goal. There are three points I would like to share with 
you today that Missouri thinks can be important to furthering 
interoperability.
    First, flexible software-driven technologies are on their 
way to assist in repairing some of the legacy disparate 
frequency band allocations that currently exist in public 
safety. Public safety radio licensing and spectrum acquisition 
can be a complicated process with many choices. Actually, many 
feel that there are too many choices for local agencies when it 
comes to meeting their communications needs and having that 
number of choices has contributed, to some degree, to a lack of 
interoperability.
    While agencies may have coverage requirements that are 
dissimilar, if they build systems in different radio bands 
today they would not be able to communicate with each other 
without additional tools. In addition, agencies strive for, as 
mentioned earlier, operability initially in their 
communications goals, which is the ability for them to 
communicate effectively with their own personnel before they 
even consider what agencies around them are doing.
    With multiple radio frequency bands to choose from, quite 
often the choice for each frequency band an agency builds their 
communications needs on is based on cost and historical 
perspective and not necessarily on what band would be the most 
technically suitable or one that best promotes interoperability 
within a community. This process leads to the creation of 
independent, stand-alone networks that cannot intercommunicate 
and islands of non-interoperable systems operating on disparate 
bands, which lead to the inability of first responders within a 
community to communicate.
    There are at least nine existing public safety radio bands 
that can be licensed on today by public safety. In some 
instances, agencies that use the same band as another can also 
be obstructed by a manufacturer's proprietary protocol, 
blocking agencies from communicating with each other when 
necessary. Hopefully, the acceleration of the Project 25 
standards process will eliminate the proprietary issues and 
result in clearly defined terms for what the interoperability 
platform should be and the new frequency agile software based 
radios can soon be utilized as a tool to bridge existing gaps 
between frequency bands.
    While both these issues can be addressed, there will be no 
rise in the interoperability quotient within these communities 
using these devices unless they are accompanied by an 
overarching strategy and a regular interoperable dialog at the 
Federal, State, county and local level. The Department of 
Homeland Security has rightly required statewide 
interoperability plans to be developed and provided to them by 
the fall of this year from each State and territory. The 
requirements for such plans is a much needed move in the right 
direction, since any nationwide interoperability plan using the 
system of systems approach will really become a national book, 
with each State and territory providing its own chapter of that 
book.
    These plans will begin to provide a snapshot of the overall 
national interoperable landscape that is long overdue. No one 
initiative can provide more of the information required in 
facilitating interoperability than the Federal Government 
requiring each State to document and make available its 
interoperable vision and corresponding communications 
initiative. This national architecture can have several 
benefits. It can require local agencies to acknowledge a 
State's wide area strategy when applying for grant funding and 
also provides them information as to what communications 
initiatives their neighboring communities utilize.
    In Missouri, for example, with Missouri having eight 
adjacent States, it is critical Missouri's plan be shared with 
its neighboring States: Illinois, Kentucky, Tennessee, 
Arkansas, Oklahoma, Kansas, Nebraska and Iowa, to ensure across 
border interstate response and to acknowledge differences and 
consistency between bordering agencies. The NTIA, with support 
from the Department of Homeland Security, should also provide 
State spectrum management training consistent with conclusions 
reached from a June 2004 NTIA report that identified the lack 
of prioritization on public safety spectrum planning at the 
State and local level.
    Achieving a degree of interoperability we all feel is 
necessary requires planning and long-term commitment, 
accompanied with responsible and realistic equipment purchases. 
Interoperability is as much a human problem as it is a hardware 
problem. In the past, NTIA provided State spectrum management 
training, which is no longer offered to State and local users 
but remains in place to provide spectrum management to 
developing nations. In many areas, providing States this 
training will allow good, consistent interoperable best 
practices to be distributed across the Nation and will lay the 
foundation necessary for interoperable communications to 
flourish within a long-term interoperable strategy.
    Public Safety Interoperable Communications Grant Program 
funding is dedicated to interoperable communications and should 
be dispersed to local agencies only after it has been proven 
and agreed upon by both the State and DHS that the application 
works with and recognizes the same goals and objectives 
consistent with the respective State interoperability plan.
    With the public safety grant awards due by September 30, 
and the States required to submit plans at the same time, there 
is a fear in the public safety communities there will not be 
sufficient time to ensure the applications submitted with the 
wide area plan developed in that State.
    I know I am out of time. Thank you, Mr. Chairman. I hope 
the rest of my testimony can be submitted.
    [The prepared statement of Mr. Devine follows:]
    [GRAPHIC] [TIFF OMITTED] 39839.003
    
    [GRAPHIC] [TIFF OMITTED] 39839.004
    
    [GRAPHIC] [TIFF OMITTED] 39839.005
    
    [GRAPHIC] [TIFF OMITTED] 39839.006
    
    [GRAPHIC] [TIFF OMITTED] 39839.007
    
    [GRAPHIC] [TIFF OMITTED] 39839.008
    
    [GRAPHIC] [TIFF OMITTED] 39839.009
    
    [GRAPHIC] [TIFF OMITTED] 39839.010
    
    [GRAPHIC] [TIFF OMITTED] 39839.011
    
    Mr. Markey. Thank you, Mr. Devine, very much. And all of 
your testimony will be included in the record. I will advise 
the panel right now that there are three roll calls on the 
floor of the House of Representatives at this time, so I will 
have to recess this hearing for approximately 25 minutes, at 
which point we will reconvene, and we will recognize you, Mr. 
Tucker, for your opening statement, and then we will go to 
questions of the panel from the subcommittee members. So the 
panel stands in recess until approximately 10 past 12:00.
    [Recess.]
    Mr. Markey. We have a little bit of a window right now, but 
I think we can use it to complete the hearing. We will next 
hear from our final witness and then go to questions from the 
subcommittee members. That witness is Mark Tucker, who is 
chairman of CoCo Communications from Seattle, Washington. 
Welcome, Mr. Tucker. Whenever you are ready, please begin.

   STATEMENT OF MARK L. TUCKER, CHAIRMAN, COCO COMMUNICATIONS

    Mr. Tucker. Thank you, Chairman Markey, Ranking Member 
Upton and members of the committee. Thank you for inviting me 
here today. My name is Mark Tucker, and I am CEO of a company 
called CoCo Communications. In the interest of time, I will 
submit my written testimony and just provide a summary, summary 
remarks.
    Over the past 5 years it has been my privilege to lead the 
effort to CoCo in developing new technologies for the public 
safety community and deploying solutions that solved 
interoperability problems. I am happy to announce that today 
there is a live network in operation in Dallas, Texas, 
connecting local, State and Federal responders together that is 
always on, and it is emergency and disaster ready.
    The significance of this network is that it is a 
subscription service. Users pay a small monthly fee to connect 
their existing radios, cell phones and computers together. 
There is no need to replace equipment, and there is no 
additional spectrum required. Using this innovative approach, a 
cost-effective national solution to the interoperability 
problem is at hand. Thank you, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Tucker follows:]
    [GRAPHIC] [TIFF OMITTED] 39839.046
    
    [GRAPHIC] [TIFF OMITTED] 39839.047
    
    [GRAPHIC] [TIFF OMITTED] 39839.048
    
    [GRAPHIC] [TIFF OMITTED] 39839.049
    
    [GRAPHIC] [TIFF OMITTED] 39839.050
    
    Mr. Markey. Thank you, Mr. Tucker. Believe it or not, you 
have just won the award for the shortest testimony of any 
witness in the history of Congress. The Chair will recognize 
himself for questions.
    Mr. O'Brien, can you talk about the nexus between your 
plan, local first responder interoperability, and coordination 
with regional or Federal agencies? In a flu pandemic, for 
example, take a flu pandemic and walk us through what your 
system would be able to do.
    Mr. O'Brien. In a flu pandemic, once our network, as 
proposed, was constructed and operating, all of the responders 
to that flu pandemic, without regard to whether in advance of 
the pandemic it was identified who needed to be part of the 
response group or how many response groups there needed to be, 
would automatically be intercommunicating at whatever level was 
considered desirable.
    An important point to make is with the system, the 
broadband system that we are proposing, that communications 
would not be limited, as is today usually the case, just to 
voice, it would include the ability to transfer data files at 
high speed and also to transmit video from person to person 
anywhere, from anywhere to anywhere. So the vision is a 
broadband network capable of supporting the highest quality of 
video, data and voice services to anyone from anyone at device 
prices that would be a fraction of what today's public safety 
devices are.
    Now, to make sure we make an important distinction, most of 
today's current public safety systems, of which there are many 
thousands, are voice centric, and they are mission critical 
voice. The need to have those systems interoperate, such as the 
kind of technology that Mark Tucker was just describing, that 
is not rendered moot by our type of system, certainly not in 
anywhere like the near term timeframe, so there is a necessity, 
there seems to be an urgent necessity to connect existing 
mission critical voice systems even as a next generation 
network, such as the one we proposed, begins to come online.
    Mr. Markey. OK. Mr. Tucker, how would you respond to that?
    Mr. Tucker. I would respond to that, at scale, the network 
that we have live down in Texas, if that were a nationwide 
system and actually CDC is a participant on that network, what 
the network allows is for cell phones to talk to radios, radios 
to talk to laptops, and it supports voice, video and data. And 
so the authentication mechanisms happen whenever there is an 
agency that turns something on, they have got ticker access.
    For example, in this pandemic example, whoever noticed the 
pandemic, whether it comes from a hospital, which we have a 
number of hospitals coming online, would issue a particular 
ticker just like you see on CNN, except for it is private and 
used for a responder, used to communicate between responder 
groups. And so just having that notification ability could 
allow other hospitals around the country to basically start 
looking out for these types of flu symptoms earlier, as well as 
they can start to issue data communications for what to do; 
where you are going to start setting up triage centers.
    Is the VA going to become involved and what is the National 
Guard going to be called into play and so the ability to have a 
nationwide vision, and the ability to have communications which 
are interoperable both at the voice level but also at the data 
level and the video level is very important so that information 
can flow up from the local to the State to the Federal, as well 
as information disseminated down from the Federal, State to 
local. So that is exactly what our system allows.
    Mr. Markey. All right, thank you. Mr. Devine, Mr. McEwen, 
you are the public safety people on the panel. The FCC is 
considering several plans for the spectrum the broadcasters are 
vacating, the so-called broadband optimization plan, the 
Frontline plan and others affect the frequency band plan or 
license requirements for the 700 MHz auction. Do you support 
any of these plans? Do you agree that the FCC should decide 
these issues prior to the auction?
    Mr. McEwen. Well, you have asked about two different 
proposals. One is the broadband optimization plan. Let me 
address that first. The public safety community that I 
represent, all of the national organizations have strongly 
endorsed that plan because of the benefits to the public safety 
community.
    There are issues along the Canadian border that need to be 
addressed, that that does a good job of solving, so there are 
many different reasons, I won't go into them in great detail, 
but the broadband optimization plan is something we feel would 
be very beneficial to public safety. That has to be acted upon 
by the FCC fairly soon because of the implications it would 
have with the auction that is coming up.
    Now, on the Frontline proposal, I will just answer that 
one. We have not taken a position on that because it has just 
been recently proposed, and we are still studying that. In 
fact, some of us met with the Frontline people just yesterday.
    Mr. Markey. OK. And do you want the FCC to resolve these 
issues before we auction off the spectrum?
    Mr. McEwen. I don't see any way around it. I mean, I think 
they have to be. Keeping in mind, now, that our proposal for 
the Public Safety Broadband Trust is dependent upon there being 
a change in the auction rules, so of course, that again has to 
be resolved if you are going to do that.
    Mr. Markey. I apologize to you, Mr. Devine. My time has 
expired. Let me turn and recognize the gentleman from Michigan, 
Mr. Upton.
    Mr. Upton. Thank you all. Mr. McEwen, just to follow up on 
that, we heard from the FCC, I believe it was last week, and 
they are beginning to write these rules and that they are 
hoping that they will be in place in just a few months so that 
they can actually go to market and be able to get the interest 
that they think that they need to do.
    Mr. Tucker, Mr. Rittenhouse, I just want to follow up a 
little bit on what Mr. Markey said and that is Mr. O'Brien 
stated in his testimony that 12 MHz would not be enough 
capacity to accommodate the broadband usage, and I just 
wondered if you agree with that or not. Mr. Tucker, Mr. 
Rittenhouse.
    Mr. Tucker. Yes, capacity is always good, so the more 
capacity that you have out there for public safety, the better. 
Is that enough for broadband? I guess that depends if you could 
leverage existing other broadband technologies. And in the case 
of a system like CoCo, you can leverage Verizon Wireless 
system, Cingular system. You can leverage Clearwire system, and 
so as you begin to aggregate the amount of bandwidth, the 
actual amount increases for usage, and so that is kind of our 
position, more bandwidth is good and more capacity is good. As 
it relates to the statement of is it enough or not? I am not 
quite sure how to answer that.
    Mr. Upton. Mr. Rittenhouse.
    Mr. Rittenhouse. Yes, I would just further state that 
mapping this into a spectrum issue is again complicated, but 
just as a point of reference, most wideband data networks today 
that are commercially deployed, supporting the entire country, 
do it within about 5 MHz. That is just a reference point.
    Mr. Upton. And Mr. O'Brien, I did appreciate the visit that 
we had a couple weeks ago, and we had covered a lot of ground 
then. I just have a question. Under your plan that would have 
the Congress authorizing this, since this is the new plan, the 
$10 billion in Government-backed loans, what happens if there 
is a default?
    Mr. O'Brien. We think one of the great advantages of our 
plan is that the license stays in the hands of the Government 
throughout the process, and therefore you never have any of the 
horribles that stem from those kinds of situations. When 
licenses fell into the bankruptcy process, such as the 
Nextwave, the point I want to stress is that we are looking at, 
in the case of legislation that we have been working on with 
public safety, we are looking at doing everything necessary to 
offset the budget shortfall that would take place if this 
spectrum were moved into the Public Safety Broadband Trust and 
to use proceeds from raising funds in the capital markets but 
looking for Government loan guarantees to keep those borrowing 
costs to the lowest possible number, getting the right balance 
of Federal assistance in what we think is a worthwhile plan and 
using the capital markets which are so abundant at this point 
with capital.
    Mr. Upton. Thank you. I yield back.
    Mr. Markey. Gentleman's time has expired. The gentleman 
from Washington State, Mr. Inslee.
    Mr. Inslee. Thank you. Mr. Tucker, thanks for making the 
trip. I make it every Monday and Friday, so I appreciate you 
coming out.
    Mr. Tucker. Thank you very much.
    Mr. Inslee. I am sorry I came in in the middle of your 
testimony, but could you expand on what sort of you see as the 
Federal need to allow this service-based, subscription-based 
interoperability to occur? Is it a designation of a particular 
standard? Is it a registration process? What is it, from the 
Federal Government, that could assist that development?
    Mr. Tucker. Well, I think that just market forces and the 
cost effectiveness of allowing a service where you don't have 
to make additional capital infrastructure investments will win 
out over the market over time. But I think what the country 
needs to do is come up with a national vision for 
interoperability, a direction that is a national direction set 
by the Federal Government to say this is the direction and this 
is the vision where we are headed.
    I think that will benefit all solutions. I think it will 
benefit State and local folks. Not so overreaching that an 
individual police department or a fire department can't make 
their own choices for their main communications, but something 
that governs or provides a direction so that everybody can move 
towards the ability to talk with each on a local, State and 
Federal basis. So I think that allowing this billion dollars to 
be used for innovative approaches and to really measure what 
the outcomes are is something that the Federal Government can 
do and something that this committee is looking at and is very 
instrumental.
    And I believe that at some stage where technology lies, 
where the state of infrastructure lies and the state of 
communications, that it is going to require Federal, State and 
local leadership, collectively, to solve the problem.
    Mr. Inslee. And where would that manifest itself most, most 
concretely, with the Federal Government? I mean, a vision 
statement, we can pass a bill, here is our vision. How does it 
actually, where the rubber meets the road, where would that be 
implemented?
    Mr. Tucker. And this is my opinion. Just looking at the 
different agencies, because we are talking about not only 
Homeland Security agencies, we are talking about DoJ agencies, 
we are talking about transportation agencies. HHS is involved. 
I think with Assistant Secretary Kneuer is a great place to put 
that responsibility, to come up with a vision statement to 
basically say this is the direction for interoperable 
communications.
    I think Homeland is doing a good job at focusing on OK, 
what do responders need, how do we get there. But I think that 
what we are really dealing with is we have got these islands of 
communication, that are these radio systems that aren't 
connected. It looks just like the Internet did when it started. 
It looks just like the cell networks, where there were pockets 
of coverage.
    And what the U.S. Government did a good job of is providing 
not competition, but a road map to basically allow competition 
to flourish and to allow a direction so that eventually 
technology could create connectivity across all these islands. 
Basically, we need interoperability to build bridges between 
all these separated islands right now. And I think that there 
needs to be somebody who is setting that vision, federally.
    Mr. Inslee. I noticed in your testimony you indicated this 
is most, the biggest penetration is in Texas.
    Mr. Tucker. Yes.
    Mr. Inslee. Why is that? Is it happenstance?
    Mr. Tucker. That project was actually born in the Office of 
Homeland Security out of the Office of the CIO, and they took a 
look at the CoCo protocol with its advanced features to create 
an open architecture out of the existing parts, and they 
decided to utilize a test bed somewhere in the country, and for 
whatever reason, Dallas was selected because there was an 
airport very close to a city, and we could basically utilize 
the network for a number of critical infrastructure points as 
well as for first responders, and the governor of Texas got 
behind it, and that trial was successful, and that has led to 
the launch of the service network down in Dallas, which is 
expanding.
    Mr. Inslee. Can you give us some idea how many services are 
involved right now? How many police departments or fire 
departments?
    Mr. Tucker. There are about nine different local, State, 
Federal groups involved, connecting about 5,000 local devices 
and then statewide, about 10,000.
    Mr. Inslee. Thank you. Thanks for being here.
    Mr. Tucker. Thank you.
    Mr. Markey. The gentleman's time has expired. Mr. Devine, 
let me ask you a question. Do you believe that the National 
Interoperable Public Safety requires a single network, or 
should it be a network of networks that all work across each 
other?
    Mr. Devine. I think, Mr. Chairman, the system of systems 
approach is what SAFECOM and DHS had identified early on that 
in order to really get our arms around this, we were going to 
have to acknowledge what exists today and realizing we just 
can't wipe the slate clean and go out and build something. It 
doesn't happen overnight, and physically, it is probably not in 
our interests, as well, at least to some degree. But I think a 
system of systems approach is necessary, and like I indicated, 
there is multiple bands, there is multiple protocols.
    But I think what we have to focus on is the end 
capabilities, not what all of those systems are made up of, but 
what comes out of them and that to be consistent nationwide is 
what we have to look at. If what comes out of the systems is 
consistent and interchangeable and subsequently interoperable, 
how they do it internally becomes still critical to the end 
goal but less important because right now we don't have that.
    Mr. Markey. So you are saying even if more spectrum is 
provided, there is no guarantee that there will be seamless 
interoperable communications amongst all of these networks? Or 
is it guaranteed? Is there a guaranteed result that the more 
spectrum we put out there the more likely it is seamless and 
working across?
    Mr. Devine. It is not my opinion that throwing spectrum at 
a problem is the sole solution. As I indicated, I think anybody 
who does anything without acknowledging that existing landscape 
that exists is not going to be successful. You have to 
acknowledge where everybody is. We have to be committed and 
aggressive and say here is our vision, here is our end point. 
Everybody is going to arrive at it from a different 
perspective. Here is where we are going to be. It is going to 
take X number of years, and we are going to commit ourselves to 
it and go there. And during that, we make sure the 
capabilities, not the frequency bands or the protocols or any 
of the other specifics are the driving factor, it is the 
capabilities in the end use.
    Mr. Markey. OK, great. Let me ask each one of you.
    Mr. McEwen. Could I respond to that, too?
    Mr. Markey. Yes.
    Mr. McEwen. Quickly. I think the answer to your question is 
obvious. I mean, for the last, since 9/11 you have been 
throwing money to us, at our request, and we have been trying 
to solve that problem of tying together the systems, the 
systems of systems approach, and we have made some progress, 
but it is a long ways off from a solution. And I think you just 
got to recognize the fact that many of us have realized that 
this just isn't going to ever get to where you want to get, and 
that is why I am suggesting a different approach.
    Mr. Markey. OK, great. Here is what I am going to ask each 
one of you, to give me your 1-minute summation of what it is 
that you want our committee to remember as we are going forward 
over the next several months. We will go in reverse order of 
the opening statements. You didn't give one, Mr. Tucker, but if 
you would, please give us your 1-minute summary.
    Mr. Tucker. Thank you, Mr. Chairman. I think that the 
billion dollars in interoperability grants are very, very 
important to the country. I think it is important that these be 
distributed for innovative approaches, and I think that getting 
them into the field this year on schedule is extremely 
important, so anything that can be done to assist that would be 
great. I think that long-term, we have got to set a national 
vision for interoperability. I don't think you can just say 
give us your plan and let us look at your plan. I think there 
has to be some vision that is set so that people understand how 
to adopt and how to get from here to there. And I think that if 
the committee could take a look at how to do that, I think that 
would be time well spent. Thank you.
    Mr. Markey. Thank you. Thank you, Mr. Tucker. Mr. Devine.
    Mr. Devine. Thank you, Mr. Chairman. I agree with Mr. 
Tucker. I think a vision has to be set. We have to be ready to 
endure all of the difficulties in arriving at it, but I think 
we have to set that, and we have to work towards it. We can't 
let the expenditures from this billion dollars lead towards the 
paradigm which has brought us to today. We have to make sure 
that these dollars are spent towards what moves us forward to 
our eventual end point. With regard to what the FCC is working 
with with band realignment, Chief McEwen and myself were part 
of the original committee that created the band and put it in 
its place when the DTV transition was uncertain.
    Now if we had to do it all over again and that was a 
certain date, we would aggregate those channels and make it 
more cost-effective and make the technologies more conducive to 
each other, so that with regard to the broadband optimization 
plan, we feel that that is conducive to that. So I think that 
the FCC's broadband vision should be consistent with the 
deployment of these grant funds. And thank you again.
    Mr. Markey. OK, great. Mr. O'Brien.
    Mr. O'Brien. Thank you, Mr. Chairman. Without question and 
without any hesitation, each day entrusts ourselves and our 
lives and our safety and loved ones to public safety first 
responders. We suggest that this committee do the same thing 
for public safety communications going into the future and 
listen to the voice of public safety, and it seems to us that 
voice is clear that a new approach is necessary; the old 
approach does not work. And if this committee fails to take 
action and the one and only spectrum opportunity that is on the 
horizon escapes us, then by inaction the committee will have 
made a decision one way or the other. The decision is clearly 
yours, the decision to listen to the voice of public safety and 
address this concern in a way that combines spectrum and 
funding. And without that combination there will be no 
progress. Thank you.
    Mr. Markey. Thank you, Mr. O'Brien. Mr. McEwen.
    Mr. McEwen. I think several members of this committee, 
today, this morning, indicated that they are looking for a 
nationwide solution for interoperability, and I think that is 
the basis for what I have been talking about here today. We are 
only asking for half of the spectrum that is to be auctioned, 
that is 60 MHz is to be auctioned; we are asking for half of 
that. This would be managed by the public safety community. 
That is a very critical issue because from our perspective, the 
only reason that we support this is because we would be in 
control, not Morgan O'Brien, not some commercial company.
    The spectrum that we are asking for would still be owned by 
the Government. Mr. Upton has asked a very good question, that 
is what happens if this falls out? You still own the spectrum. 
If it all failed, if everything failed, which I don't believe 
it will, you own the spectrum, now you can auction it and still 
make the same amount of money, maybe more. But the point is 
that that is your fallback.
    And the last thing is that this is a taxpayer relief 
proposal. I mean, we have been asking you for funding for 
years, and we are suggesting there is a different paradigm. Let 
us go to somebody like a Morgan O'Brien or whoever and let them 
invest their money to build the solution and take that monkey 
off your back and our back. Thank you.
    Mr. Markey. Thank you, Mr. McEwen. Before I recognize you, 
Mr. Rittenhouse, I have to leave the hearing right now. I am 
going to turn the chair over to Congresswoman Capps from 
California for her to ask her questions, and then the hearing 
will adjourn, but we thank all of you for your testimonies 
today. Mr. Rittenhouse, please give us your final.
    Mr. Rittenhouse. Sure. Thanks to the leadership of this 
committee, we all recognize the importance of public safety. 
The two things that I want to leave you with are first of all, 
to give our first responders the same type of technology 
capabilities that are enjoyed by most Americans today. That is 
the least we can do for the public safety community. The second 
thing I want to leave you with is interoperability. In the 
commercial market we face interoperability every day. Of 
course, when you leave here and arrive at another airport, you 
expect your cell technology to work. It has always been 
interoperable, not just geographically, but across generations, 
as well. Technology continues to move forward, and we have to 
maintain that backward compatibility. So the issues that are 
perhaps new to public safety are not new to the commercial 
providers, as well. Thank you.
    Mrs. Capps [presiding]. Thank you, each of you, and I know 
you have given your summary statements, but since I wasn't able 
to come until now, I beg you to extend your time another few 
minutes so that I can enter into this discussion. I am really 
pleased with this panel's presence here today to talk about 
these very important concerns of public safety. I have been 
involved in public safety all my life.
    I am particularly interested, Mr. Tucker, and I know you 
delved into this a little, but I am hopeful that you can 
explain now, for a few minutes, a little more about the 
software-driven interoperability service that your company has 
developed in Dallas. I found it very intriguing, and as I 
understand it, CoCo Communications actually does connect local, 
State and Federal public safety agencies and even Southwest 
Airlines.
    Mr. Tucker. That is correct.
    Mrs. Capps. And I think this is remarkable that you have a 
subscription service that is a network of networks so they can 
talk to each other and don't even have to buy any new 
equipment. This sounds, to me, too good to be true. Maybe you 
can use a couple minutes to talk about that.
    Mr. Tucker. Great. Well, thank you very much. In a 
nutshell, what is going on is we have got these islands of 
communication that don't communicate together, just like before 
the Internet we had all these computer systems that didn't talk 
together. They were islands of computer networks. And so what 
the Internet allowed is it allowed a service; you put in a DSL, 
you put in a cable box and you can connect your network to, 
call it a cloud of connectivity and you can have communications 
from one computer network to another.
    The same thing is possible in what's running down at Love 
Field using the CoCo protocol, which is a new technology that 
is optimized for communications at the edge dealing with DoD 
grade security so National Guard can connect to a local 
fireman. And the key is, is to allow this same type of 
connectivity to occur that occurred that built the Internet, 
which basically created a master connectivity system where all 
the systems can now talk together.
    And so that is what is live now in Dallas, and the service 
model is such that instead of rip and replace or pulling 
systems out and rebuilding with new systems, you can take your 
existing system, just like you could take your existing 
computer networks, back before the Internet, and you could 
basically just provide a service to connect them.
    It is a little bit more complicated than just connecting a 
computer service because you have got radios to deal with, you 
have got the ability to have the secondary device of a 
responder, which is a cell phone, to communicate to the radios 
and then have both of those devices communicate back to laptops 
and the computer networks. And so the ability to share voice, 
video and data that allow interoperability on all three of 
those levels is what has been achieved.
    And so the impact of what that is, is it is basically, you 
can create a nationwide system of systems approach using 
subscription model where service providers can go out and 
provide that connectivity just like an ISP, an Internet Service 
Provider, would go out and provide connectivity to a commercial 
entity.
    Mrs. Capps. I can ask you a lot of questions just about how 
that works, but I want to get specific in terms of its 
applicability. What would happen when there is an interruption 
in Internet service or something goes wrong and also, in 
addition to that, would this system work in a chaotic situation 
such as, I come from earthquake country out in California, or 
God forbid, something as drastic as 9/11?
    Mr. Tucker. Right. And that is why it is a little bit 
harder than just connecting to the Internet and connecting 
computer networks, and so the key is convergence; convergence 
of the infrastructure assets where you take different radio 
systems that allow convergence through the terrestrial 
backbone, phone companies' networks, but you also need to be 
able to be emergency ready, which means you need to use the 
cell carrier networks, as well as the radio assets, and if you 
start to see networks going down, which is what the CoCo 
protocol controls, the routes and the change basically occurs 
so that communication can happen.
    So even if you lose your terrestrial networks, you can 
still put a laptop up, connect radio to that laptop and you can 
have your radio devices that are battery powered, even if all 
power is out, still communicate on the scene. And then if you 
have any satellite link, the protocol will direct things to a 
satellite link and connect back to another part of the country 
that still has power. And so the key with public safety is to 
deal with connectivity, not just on a terrestrial basis, but 
that is important, but also allow for a convergence to happen 
wirelessly, locally and also at the service level.
    Mrs. Capps. Is this what you mean by self-healing?
    Mr. Tucker. That is correct.
    Mrs. Capps. So that all three of those levels, if one is 
disrupted, then the other two carry on while that one disrupted 
fixes itself?
    Mr. Tucker. That is correct. Now, when all the batteries 
are gone and the power is out and every network is down and 
your last battery runs out of your radio and your power goes 
down, your generator goes down, connecting to your satellite, 
there is going to be no communication, but what this network 
allows is the strength of allowing different networks to fail 
and still enable emergency communications and be disaster 
communications ready.
    And the other key is, is that the network is always on so 
that it doesn't take, on the scene of an incident, to connect 
the radios together and say OK, all five responder groups can 
now connect locally. It allows the network to always be on so 
that information sharing can occur on a day-to-day basis, which 
is what is happening down at Dallas.
    Mrs. Capps. I know that my time is up, and since I am in 
the chair, I have no excuses for extending, but I was hoping, 
maybe just for half a second, Mr. McEwen or Mr. Tucker or Mr. 
Devine would like to comment on this and not pushing one 
product as much as on the system that is being discussed. Or 
anyone? Then we will close.
    Mr. Devine. Yes. As a general idea, I think the proposal, 
the concept is interesting. My question would be, and I have 
never met Mark, but would ask if there is a standard 
specifically for that protocol or is that a proprietary device, 
and it is very possible that it is. And from a market 
perspective, I don't know how that will work, but the idea of 
leveraging some of the other assets that are existing around 
you, when your radio doesn't work, you will be able to borrow 
that, is certainly a noble one.
    Mrs. Capps. We will have to go into that at another time. 
Anybody else have a final comment on that or a question or a 
concern about it?
    Mr. McEwen. Not in half a second.
    Mrs. Capps. I know. I apologize, but I think we do have a 
fruitful discussion to start another hearing on, and with this, 
we will have this hearing adjourned, and thank you all for your 
participation.
    [Whereupon, at 12:54 p.m. the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 39839.051
    
    [GRAPHIC] [TIFF OMITTED] 39839.052
    
    [GRAPHIC] [TIFF OMITTED] 39839.053
    
    [GRAPHIC] [TIFF OMITTED] 39839.054
    
    [GRAPHIC] [TIFF OMITTED] 39839.055
    
    [GRAPHIC] [TIFF OMITTED] 39839.056
    
    [GRAPHIC] [TIFF OMITTED] 39839.057
    
    [GRAPHIC] [TIFF OMITTED] 39839.058
    
    [GRAPHIC] [TIFF OMITTED] 39839.059
    
    [GRAPHIC] [TIFF OMITTED] 39839.060
    
    [GRAPHIC] [TIFF OMITTED] 39839.061
    
    [GRAPHIC] [TIFF OMITTED] 39839.062
    
    [GRAPHIC] [TIFF OMITTED] 39839.063
    
    [GRAPHIC] [TIFF OMITTED] 39839.064
    
    [GRAPHIC] [TIFF OMITTED] 39839.065
    
    [GRAPHIC] [TIFF OMITTED] 39839.066
    
    [GRAPHIC] [TIFF OMITTED] 39839.067
    
    [GRAPHIC] [TIFF OMITTED] 39839.068
    
    [GRAPHIC] [TIFF OMITTED] 39839.069
    
    [GRAPHIC] [TIFF OMITTED] 39839.070
    
    [GRAPHIC] [TIFF OMITTED] 39839.071
    
    [GRAPHIC] [TIFF OMITTED] 39839.072
    
    [GRAPHIC] [TIFF OMITTED] 39839.073
    
    [GRAPHIC] [TIFF OMITTED] 39839.074
    
    [GRAPHIC] [TIFF OMITTED] 39839.075
    
    [GRAPHIC] [TIFF OMITTED] 39839.076
    
    [GRAPHIC] [TIFF OMITTED] 39839.077
    
    [GRAPHIC] [TIFF OMITTED] 39839.078
    
    [GRAPHIC] [TIFF OMITTED] 39839.079
    
    [GRAPHIC] [TIFF OMITTED] 39839.080
    
    [GRAPHIC] [TIFF OMITTED] 39839.081
    
    [GRAPHIC] [TIFF OMITTED] 39839.082
    
    [GRAPHIC] [TIFF OMITTED] 39839.083
    
    [GRAPHIC] [TIFF OMITTED] 39839.084
    
    [GRAPHIC] [TIFF OMITTED] 39839.085
    
    United States Department of Commerce
    Assistant Secretary for Communications
    Washington, DC 20230

    March 1, 2007

    The Honorable Eliot Engel
    House of Representatives
    Washington, DC 20515

    Dear Representative Engel:

     Thank you for sharing your concerns about section 3006 of 
the Deficit Reduction Act of 2005, Public Law No. 109-171, and 
the manner in which the Department of Commerce will administer 
the Public Safety Interoperable Communications (PSIC) grant 
program created and funded by this section. The Department 
recognizes the significant investment the city of New York has 
made in improving public safety communications and 
interoperability.
     As you note in your letter, section 3006 directs the 
Department of Commerce's National Telecommunications and 
Information Administration (NTIA) to Establish and implement a 
grant program to assist public safety agencies in the 
acquisition of, deployment of, and training for the use of 
interoperable communications systems that utilize, or enable 
interoperability with communications systems that can utilize, 
certain frequencies in the 700 MHz band. NTIA does not view 
this language to limit the grant funds only to 700 MHz systems 
investments. Rather, NTIA is committed to exploring the use of 
all available technologies to advance overall public safety 
interoperability, so long as those technologies will enable 
first responders to interoperate with 700 MHz band in the 
future.
     Mayor Michael Bloomberg also raised similar concerns about 
the PSIC program, and on February 22, 2007, I visited New York 
City to meet with the New York Police Department. The meeting 
provided valuable information about the public safety needs and 
interoperability concerns of New York.
    NTIA, in consultation with the Department of Homeland 
Security, intends to design the PSIC program as a one-time 
grant opportunity that will achieve a meaningful improvement in 
the state of public safety communications interoperability and 
provide the maximum amount of interoperable communications 
systems with a minimum of impact to or replacement of existing 
state, tribal, and local radio communications assets. NTIA 
expects to make PSIC grant awards no latter than September 30, 
2007, as required by the Call Home Act of 2006, Public Law No. 
109-459.
     During these days of heightened security and awareness, 
public safety agencies are required and expected to serve their 
citizens as effectively as possible. The Department of Commerce 
shares your commitment to improving the state of communications 
interoperability among our Nation's first responders.

    John M.R. Kneuer
    Assistant Secretary for Communications
    U.S. Department of Commerce

                                 <all>

</pre></body></html>
